<html>
<title> - NATO: THE CHICAGO SUMMIT AND U.S. POLICY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                NATO: THE CHICAGO SUMMIT AND U.S. POLICY

=======================================================================


                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON EUROPE AND EURASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS 

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 26, 2012

                               __________

                           Serial No. 112-166

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
74-003                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                   Subcommittee on Europe and Eurasia

                     DAN BURTON, Indiana, Chairman
ELTON GALLEGLY, California           GREGORY W. MEEKS, New York
GUS M. BILIRAKIS, Florida            ELIOT L. ENGEL, New York
TIM GRIFFIN, Arkansas                ALBIO SIRES, New Jersey
TOM MARINO, Pennsylvania             THEODORE E. DEUTCH, Florida
JEAN SCHMIDT, Ohio
TED POE, Texas
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Tina S. Kaidanow, Principal Deputy Assistant 
  Secretary, Bureau of European and Eurasian Affairs, U.S. 
  Department of State............................................     8
Mr. James Townsend, Deputy Assistant Secretary, European and NATO 
  Policy, U.S. Department of Defense.............................    20
Mr. Damon Wilson, executive vice president, The Atlantic Council.    41
Mr. Luke Coffey, Margaret Thatcher Fellow, The Heritage 
  Foundation.....................................................    50
Stephen Flanagan, Ph.D., Henry A. Kissinger Chair in Diplomacy 
  and National Security, Center for Strategic and International 
  Studies........................................................    67

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana, and chairman, Subcommittee on Europe and 
  Eurasia: Prepared statement....................................     5
The Honorable Tina S. Kaidanow: Prepared statement...............    11
Mr. James Townsend: Prepared statement...........................    22
Mr. Damon Wilson: Prepared statement.............................    44
Mr. Luke Coffey: Prepared statement..............................    52
Stephen Flanagan, Ph.D.: Prepared statement......................    70

                                APPENDIX

Hearing notice...................................................    88
Hearing minutes..................................................    89
Written responses from the Honorable Tina S. Kaidanow to 
  questions submitted for the record by:
  The Honorable Gus Bilirakis, a Representative in Congress from 
    the State of Florida.........................................    90
  The Honorable Eliot L. Engel, a Representative in Congress from 
    the State of New York........................................    92


                NATO: THE CHICAGO SUMMIT AND U.S. POLICY

                              ----------                              


                        THURSDAY, APRIL 26, 2012

                  House of Representatives,
                Subcommittee on Europe and Eurasia,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Jean Schmidt 
presiding.
    Ms. Schmidt [presiding]. Now I would like to open the 
subcommittee hearing on Europe and Eurasia. Since I have 
already given an opening statement, I am not going to say 
basically the same thing again, but echo that belief that we 
need to expand the membership in NATO to many of the countries 
that were mentioned here today.
    But now I would like to ask Mr. Meeks if he has an opening 
statement.
    Mr. Meeks. I do. Since I gave mine, basically, on the 
Georgian markup and resolution, I do want to make some comments 
specifically about NATO and the Chicago Summit and U.S. policy.
    I want to thank, again, Chairman Burton, for scheduling 
this hearing. It is very timely, as it is leading up to the 
Chicago Summit.
    NATO remains the United States' premiere defense alliance 
and an essential instrument for peace, in my estimation. The 
Chicago Summit will take place this year as allied leaders 
grapple with severe budgetary constraints, wind down the ISAF 
presence in Afghanistan, and develop the capability to respond 
to increasing threats to global strategic stability and peace.
    Contemplating these challenges, it is useful to look at the 
continuum of NATO policymaking or at least at recent history. 
At the 2010 Lisbon Summit, NATO adopted a new strategic concept 
which outlines NATO's vision for the coming decade. Realization 
of this strategy will enable the alliance to respond to a full 
range of evolving threats, including to energy and cyber 
security and migration, and will provide stability beyond the 
geography of the alliance.
    But I mentioned constraints. In implementing this strategy 
and in anticipating, confronting, and eliminating threats to 
peace and stability, NATO must do more with less. In this age 
of austerity on both sides of the Atlantic, defense budgets, 
all budgets, are under pressure. Defense expenditures as a 
percentage of GDP vary from 4.8 percent in the United States to 
0.8 percent in some member states, and raises the questions of 
readiness of NATO assets. This is a concern that must be 
addressed.
    Some alliance members, for example Latvia, are working 
toward meeting the commitment despite financial difficulties. 
As they chart their way out of the financial crises, their 
long-term budget planning will raise defense spending to 2 
percent of GDP by 2020. State Secretary of Latvian Ministry of 
Defense, Mr. Janis Sarts, recently stated that, ``the current 
defense budget was appropriate for the time of the crisis, and 
we were able to do it thanks to the understanding of other NATO 
member states. But we should not expect that we will be able to 
live on the account of others in the future.''
    Since the Cold War, NATO has expanded from 16 to 28 
members, a fact that has been a driver for reform and generated 
stability throughout Europe. The alliance vision for a Europe 
whole, free, and at peace remains unrealized. The goal is 
attainable; integration into Euro-Atlantic structures of all 
European countries that so desire is the path, the correct path 
toward it, in my estimation.
    NATO allies Bosnia and Herzegovina, Georgia, Macedonia, and 
Montenegro have expressed their aspirations to join NATO, and 
alliance leaders recognized their aspirations at the Bucharest, 
Strasbourg/Kehl, and Lisbon Summits.
    Passing complex reforms, maintaining high levels of public 
support, and, above all, committing troops, expertise, funding, 
material, and political support to critical operations in 
Afghanistan, Kosovo, and Libya, these nations have repeatedly 
asserted NATO membership as a strategic policy goal. We, the 
NATO member states, must acknowledge these gestures by 
providing these countries roadmaps to membership.
    Two issues concern me, though, about NATO's enlargement 
prospects. My concern is that there is an apparent lack of 
cohesion within the alliance regarding Georgia becoming a 
member of NATO, and whether perception or politics, it is 
unhealthy for the future of NATO and the future of Georgia to 
let this question linger. I hope that the Chicago Summit will 
bring some clarity there.
    My other concern relates to bilateral conflicts playing out 
within NATO. Today we are seeing bilateral conflicts between 
alliance members, aspirant countries, and partners; notably, 
Greece and Macedonia's disagreement over the name issue that 
keeps Macedonia out of NATO; Turkey and NATO-partner Israel's 
multidimensional discord that led to Turkey preventing Israel 
from attending partnership meetings at the NATO Summit.
    I am troubled that these unresolved issues undermine core 
NATO values and hamper alliance functions and capabilities. I 
urge all parties, NATO members and non-NATO members, to 
consider the broader ramifications of using NATO as a venue to 
gain leverage in bilateral disputes. I call on my congressional 
colleagues and the administration to convey this message to all 
of the relevant parties.
    Thank you again, Mr. Chairman, for holding this timely 
hearing. I look forward to hearing our witnesses' thoughts on 
how we can maintain a NATO as the essential forum for allied 
security consultations, decisions, and action.
    Mr. Burton [presiding]. Thank you, Mr. Meeks.
    I apologize for my temporary absence. We had a bunch of 
votes in another committee, but it is good to be back.
    In less than a month, leaders of NATO member states will 
converge, as my colleague said, in Chicago for the Chicago 
Summit. As are my colleagues, I am a strong supporter of NATO. 
Based on the bedrock of the common principles of democracy, 
individual liberty, and the rule of law, over the course of the 
63 years of its history, the alliance has evolved to protect 
the freedom and security of all of its members.
    Is that call from the President for me? [Laughter.]
    NATO will evolve through the Chicago Summit as it has done 
through the past Summits, including Riga, Bucharest, and 
Lisbon. We are here to discuss how NATO will evolve.
    It is clear that the Summit will address Afghanistan and 
NATO's commitment through 2014 and beyond. The alliance should 
also take this opportunity to begin to formulate a coherent 
strategy toward the Middle East and North Africa, including 
Libya, Syria, and Iran, that works with and develops the 
alliance's partners in the region.
    I was critical of the military action in Libya. As we have 
learned, once the military goes in and does its job, the next 
step often remains unclear as to what we do and not fully 
understanding the internal political dynamics of the countries 
that we are trying to help. The resulting instability can lead 
to greater threats and further instability. NATO needs to think 
beyond the military stage and prepare for the political 
realities after fighting.
    Toward that end, a number of us have made statements on the 
Floor about the United States being involved in these affairs 
without Congress passing resolutions dealing with those things. 
I have stated in numerous articles that Congress needs to be 
involved in the decision making process and that neither the 
President nor one or more Senators should unilaterally make 
decisions to involve us in military conflicts without the 
consent and the support of Congress.
    I am concerned with the effects of the European financial 
crisis on NATO. As I have previously stated, I am skeptical of 
the steps Europe has taken to solve the crisis and feel that 
the crisis is not over. Clearly, this ongoing crisis has 
impacted, and will continue to impact, the resources that the 
alliance's European members are willing and able to invest in 
defense. Of the 28 NATO members, only three currently meet the 
common commitment to spend 2 percent of their GDP on defense. 
At the same time, further cuts are expected, and that is 
something that we ought to all be concerned about.
    I agree with the concerns then-Secretary Gates voiced last 
summer in Brussels; there will be growing difficulty for the 
U.S. to sustain its current support for NATO if the American 
taxpayer continues to carry the bulk of the burden of the 
alliance. NATO must always work to improve cooperation and 
coordination among its members; however, such actions are the 
very essence of what it means to participate in an alliance and 
are not a replacement for adequate funding. While I understand 
and embrace the need for austerity and reduced government 
spending on both sides of the Atlantic, particularly here, I 
urge all members of the alliance to incorporate the 2 percent 
commitment in their long-term budgetary goals. I hope that is 
discussed very thoroughly in Chicago.
    However, at the same time, I urge the administration to 
make it clear that, despite the need for increased focus on 
Asia, the United States remains committed to achieving and 
maintaining the longstanding goal of a Europe: Whole, free, and 
at peace.
    The concerns that I have just raised are based on my 
steadfast support of NATO. The alliance stands with the U.S.-EU 
economic cooperation as a cornerstone of global stability. The 
alliance must increase cooperation with key partners around the 
globe to better leverage transatlantic leadership in the face 
of diverse challenges. However, NATO must also remain committed 
to enlargement by providing paths for qualified aspirant 
countries that embrace the alliance's common values to enter 
the ``open door.'' As we have seen in Afghanistan, such 
countries already provide the alliance with important 
capabilities.
    If we do not provide clear pathways toward future admission 
into the alliance, and, thus, the transatlantic community, we 
create conditions where these countries can slide backwards, 
away from Europe and further away from democracy and stability.
    Although the Summit would be far more productive if held in 
Indianapolis--that is my hometown--or Little Rock, as my 
colleague just said. Little Rock? Is that in America, Little 
Rock? [Laughter.]
    Chicago will present an important opportunity for the 
alliance's leadership to solidify a final strategy for 
Afghanistan, formulate a coherent strategy for supporting 
stable democratic development in the Middle East and North 
Africa, and establish a unified vision for NATO's future that 
reaffirms its members' support for maintaining a robust 
alliance while enhancing cooperation with key global partners 
and maintaining a responsible open-door policy.
    I am very eager to hear the testimony from our witnesses 
today and learn more about NATO's future.
    Do we have any other members who would like to make an 
opening statement? The gentleman from New York, Mr. Engel.
    [The prepared statement of Mr. Burton follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Engel. Thank you, Mr. Chairman. I just want to make a 
short opening statement to add to what I said before.
    I think it is very important. You know, when the Soviet 
Union fell, and I was a member of this committee way back then, 
as you were, Mr. Chairman, I called for expansion of NATO as 
quickly as possible because I really believe that you strike 
while the iron is hot.
    We now see that, since it is so much later and that Russia 
has to some degree regained its footing, it is opposing 
expansion of NATO as somehow a perceived threat to them, but it 
isn't.
    I still believe that NATO should expand and that countries 
that want to get into NATO ought to become members of NATO. 
Georgia, the Ukraine, Macedonia, Kosovo, Montenegro, and Bosnia 
ought to become members of NATO. They want to, and we should 
welcome them with open arms. I think it is very, very 
important.
    I know that I am eagerly awaiting the testimony of 
Ambassador Kaidanow, who I know served in Pristina, Kosovo, as 
our Ambassador. I am anxious to hear what she has to say about 
that as well.
    I finally want to, again, reiterate what I said before. I 
think it is an absolute disgrace that Turkey is, as of now, 
blocking Israel from participating in the NATO meeting. Israel 
has participated in many NATO meetings before. I want to 
condemn it and hope that the government in Ankara changes its 
attitude.
    With that, I want to say that I agree, essentially, with 
everything that has been said by all my colleagues on both 
sides of the aisle.
    And with that, I yield back the balance of my time.
    Mr. Griffin [presiding]. Do any of the members want to make 
opening statements? Would you like to?
    [No response.]
    Okay. Then, I would like to introduce the witnesses. Thank 
you all for being here with us today.
    Testifying on the first panel, on behalf of the Department 
of State, is Ambassador Tina Kaidanow, Principal Deputy 
Assistant Secretary for the Bureau of Europe and Eurasia. 
Ambassador Kaidanow assumed her current position on July 1st, 
2011. Previously, she served as the Bureau's Deputy Assistant 
Secretary responsible for issues related to Greece, Turkey, 
Cypress, and the Caucuses. Previously, Ms. Kaidanow served as 
the U.S. Ambassador to the Republic of Kosovo. A career member 
of the U.S. Diplomatic Service, Ambassador Kaidanow has served 
in a variety of positions focused primarily on Southeastern 
Europe at the Department of State and the National Security 
Council.
    Ms. Kaidanow holds a bachelor of arts and master of arts 
degree from the University of Pennsylvania and a master of 
philosophy degree in political science from Columbia University 
in New York.
    Representing the Department of Defense is Mr. James J. 
Townsend, Jr., Deputy Assistant Secretary of Defense for 
European and NATO Policy. In this position, Mr. Townsend is 
responsible for managing the day-to-day defense relationship 
between the United States, NATO, the EU, and the nations of 
Europe.
    Before taking up his current position, which represents a 
return to the Pentagon, Mr. Townsend was Vice President of the 
Atlantic Council of the United States and Director of the 
Council's Program on International Security.
    Mr. Townsend has previously served as Principal Director of 
European and NATO Policy and Director of the Defense Plans 
Division at the U.S. Mission to NATO in Brussels, Belgium, 
among other positions, including the office of Congressman 
Charles Edward Bennett.
    Mr. Townsend earned a BA from Duke University and an MA 
from the Johns Hopkins School of Advanced International Studies 
in international economics and American foreign policy.
    Thank you both for being here today.
    Ambassador Kaidanow, if you would like to start?

 STATEMENT OF THE HONORABLE TINA S. KAIDANOW, PRINCIPAL DEPUTY 
 ASSISTANT SECRETARY, BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, 
                    U.S. DEPARTMENT OF STATE

    Ms. Kaidanow. Thank you. Mr. Chairman, Ranking Member 
Meeks, and members of the committee, thank you all for inviting 
us here today to discuss the NATO Summit, which the United 
States is proud to be hosting in Chicago on May 20th and 21st 
of this year.
    Our hosting of the Summit is actually a tangible symbol of 
the importance of NATO to the United States, as well as an 
opportunity to underscore to the American people the continued 
value of this alliance to the security challenges that we face 
today.
    With your permission, I would like to submit my full 
statement for the record and provide just a brief summary at 
this point.
    Mr. Griffin. Without objection.
    Ms. Kaidanow. Thank you.
    At NATO's last Summit in Lisbon nearly 18 months ago, 
allies unveiled a new strategic concept that defines NATO's 
focus in the 21st century. Building on the decisions taken in 
Lisbon, allies have three objectives for this Summit, and I 
would characterize them as Afghanistan-related, capabilities, 
and partnerships.
    On Afghanistan, the ISAF coalition, which is comprised of 
90,000 U.S. troops serving alongside 36,000 troops from NATO 
allies and 5,300 from partner countries, has made significant 
progress in preventing the country from serving as a safe haven 
for terrorists and ensuring that Afghans are able to provide 
for their own security. These are both necessary conditions to 
fulfill the President's goal to disrupt, dismantle, and defeat 
al-Qaeda.
    At Chicago, the United States anticipates three major 
deliverables. One, an agreement on an interim milestone in 2013 
when ISAF's mission will shift from combat to support for the 
Afghan National Security Forces, the ANSF. Second, an agreement 
on the cost, size, and sustainment of the ANSF beyond 2014. And 
third, a roadmap for NATO's post-2014 role in Afghanistan.
    On capabilities, NATO's ability to deploy an effective 
fighting force in the field makes this alliance unique. 
However, its capacity to deter and to respond to security 
challenges will only be as successful as its forces are able, 
effective, interoperable, and modern.
    In the current era of fiscal austerity, NATO can still 
maintain a strong defense, but doing so requires innovation, 
creativity, and efficiencies. The United States is modernizing 
its presence in Europe at the same time that our NATO allies 
and NATO as an institution are engaged in similar steps. This 
is a clear opportunity for our European allies to take on 
greater responsibility. The United States continues to 
encourage allies strongly to meet the 2 percent benchmark for 
defense spending and to contribute politically, financially, 
and operationally to the strength of the alliance.
    In addition to the total level of defense spending, we 
should also focus on how these limited resources are allocated 
and for what priorities. NATO has made progress toward pooling 
more national resources or what NATO Secretary General 
Rasmussen has described as ``smart defense.'' These efforts are 
exemplified through the capabilities package that the United 
States anticipates leaders will endorse in Chicago, which 
includes missile defense, alliance ground surveillance, and 
Baltic air policing.
    Finally, the Chicago Summit will highlight NATO's success 
in working with a growing number of partners all across the 
globe. Effective partnerships allow the alliance to extend its 
reach, to act with greater legitimacy, to share burdens, and to 
benefit from the capabilities of others.
    Allies will not take decisions on further enlargement of 
NATO in Chicago, but they will, nevertheless, send a clear and 
positive message to aspirant countries in support of their 
membership goals. The United States has been very clear that 
NATO's door remains open to new members that meet the 
alliance's standards. Bosnia and Herzegovina, Macedonia, 
Montenegro, and Georgia are all working closely with allies to 
meet NATO criteria, so that they may enter the alliance.
    Macedonia has fulfilled key criteria required of NATO 
members and has contributed to regional and to global security. 
The United States fully supports the U.N. process, led by 
Ambassador Nimitz, and regularly engages with both Greece and 
Macedonia in order to find a mutually-acceptable solution to 
the name dispute in order to fulfill the decision taken at the 
NATO Summit in Bucharest and extend a membership offer to 
Macedonia.
    In the case of Montenegro, the United States is assisting 
reform efforts by taking steps to embed a Defense Advisor in 
the Ministry of Defense. We encourage other allies to consider 
similar capacity-building measures.
    In Bosnia and Herzegovina, the recent agreement on 
registering defense properties is a significant step forward 
toward fulfilling the conditions laid out at the NATO Foreign 
Minister's meeting in Tallinn in April 2010. NATO should spare 
no effort in assisting the Bosnian Government's implementation 
of this decision, which would allow them to submit their first 
Annual National Program this fall.
    With regard to Georgia, U.S. security assistance and 
military engagement support the country's defense reforms, 
train and equip Georgian troops for participation in ISAF 
operations, and advance its NATO interoperability. In January, 
President Obama and President Saakashvili agreed to enhance 
this cooperation to advance Georgian military modernization, 
defense reform, and self-defense capabilities.
    U.S. assistance programs provide additional support to 
ongoing democratic and economic reform efforts in Georgia, a 
critical part of Georgia's Euro-Atlantic aspirations, where 
they have made important strides. U.S. support for Georgia's 
territorial integrity within its internationally-recognized 
borders remains absolutely steadfast, and our non-recognition 
of the separatist regions of Abkhazia and South Ossetia will 
not change.
    Finally, let me say a word about NATO's relationship with 
Russia. 2012 marks the 15th anniversary of the NATO-Russia 
Founding Act and the 10th anniversary of the NATO Russia 
Council. We commemorated those anniversaries at a NATO-Russia 
foreign ministers meeting last week in Brussels.
    The NRC is founded on our commitment to cooperate in areas 
of mutual interest and address issues of disagreement. The best 
example of cooperation is our joint efforts in Afghanistan, 
where Russia's transit support has been critical to the 
mission's success. At the same time, NATO continues to seek 
cooperation with Russia on missile defense in order to enhance 
our individual capabilities to counter this threat.
    While we strive for cooperation, we have also been frank in 
our discussions with Russia that we will continue to develop 
and deploy our missile defenses irrespective of the status of 
missile defense cooperation with Russia. Let me be clear. NATO 
is not a threat to Russia, nor is Russia a threat to NATO.
    It is no secret that there are issues on which allies and 
Russia differ. Russia has been critical of NATO's operation in 
Libya. We also disagree fundamentally over the situation in 
Georgia. Since 2008, NATO has strongly supported Georgia's 
sovereignty and territorial integrity.
    As we look to Chicago, these three Summit priorities that I 
mentioned, defining the next phase of the transition in 
Afghanistan, outlining a vision for addressing 21st century 
challenges in a period of austerity, and expanding our 
partnerships, all show just how much NATO has evolved since its 
founding six decades ago.
    The reasons for the alliance's continued success are very 
clear. NATO has over the last 63 years proven to be an 
adaptable, durable, and cost-effective provider of security. In 
Chicago, the United States will work with its allies and its 
partners to ensure that the alliance remains vibrant and 
capable for many more years to come.
    With that, I look forward to your questions. Thank you.
    [The prepared statement of Ms. Kaidanow follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Griffin. Thank you.
    Mr. Townsend?

 STATEMENT OF MR. JAMES TOWNSEND, DEPUTY ASSISTANT SECRETARY, 
      EUROPEAN AND NATO POLICY, U.S. DEPARTMENT OF DEFENSE

    Mr. Townsend. Thank you, Chairman and Ranking Member Meeks, 
and members of the committee. Thank you for inviting me here 
today to discuss the NATO Summit, which the United States will 
host in Chicago in May.
    I will describe for the committee what we hope to achieve 
at the Summit from the Defense Department point of view and its 
relevance for U.S. national security. I particularly look 
forward to hearing the committee's views on the Summit and the 
priorities you have for its outcome.
    I would like to submit my full statement for the record and 
give you a summary of my statement this afternoon.
    Mr. Griffin. Without objection.
    Mr. Townsend. NATO heads of state and government come 
together at a Summit every few years not only to approve 
important pieces of alliance business, but also to renew at the 
highest level the commitment allies have made to one another in 
the North Atlantic Treaty. This commitment to come to one 
another's defense, as expressed in Article 5 of the Treaty, is 
a solemn one that has only been invoked once--after the United 
States was attacked on September 11th, 2001.
    This commitment was critical during the Cold War to help 
deter the Soviet Union and the Warsaw Pact from attacking the 
United States and our allies. Even with the end of the Cold 
War, this Article 5 commitment remains the core of the 
alliance. NATO serves as the organizing framework to ensure 
that we have allies willing and able to fight alongside us in 
conflict, and provides an integrated military structure that 
puts the military teeth behind alliance political decisions to 
take action. In addition to ensuring the interoperability of 
our allies, NATO serves as a hub and an integrator of a network 
of global security partners.
    The NATO air and maritime operation in Libya illustrates 
this point. The operation began as a coalition of the willing, 
involving the United States, the United Kingdom, and France. 
However, when NATO answered the U.N.'s call to protect the 
Libyan people, it was able to take on the mission and execute 
it successfully. Had NATO not been there, or had NATO been too 
weak an institution to take on such an operation, the coalition 
would have had to carry on alone.
    Keeping NATO strong both politically and militarily is 
critical to ensuring NATO is ready when it is needed. This has 
been true for the past 20 years, when the turbulence of the 
international system has demanded that NATO respond nearly 
continuously to crises throughout the globe.
    Today, for example, NATO forces are in Afghanistan, in the 
Balkans, countering pirates in waters off Somalia, and have 
concluded operations in Libya. Looking out into the future, 
challenges to the United States and our allies can come from 
ballistic missile proliferation, cyber attack, terrorism, 
weapons of mass destruction, as well as from the instability 
that can come from turbulence in the Middle East, North Africa, 
and elsewhere. We must be ready to meet emerging threats, and 
we would prefer to meet these challenges together with allies, 
and not alone.
    So, the strategic context for the Summit, and for our work 
at NATO every day, is: How can we keep NATO and the allies 
ready and able to meet the challenges of today and in the 
future? This is especially complex today, as the European 
economic crisis compels allies to cut defense spending and 
force structure in order to reduce their debt and decrease 
government spending.
    Allies, too, have different views and priorities regarding 
perceptions of the threat and the traditions of their own 
military forces. Not every ally sees the world and their role 
in it the way we do. But one thing we all agree on is that we 
need the alliance to be unified and strong. Allies look to the 
United States to lead the way in keeping NATO strong, capable, 
and credible.
    That is where we come to the Summit. At Chicago, heads of 
state and government will agree or approve work that we 
committed to at the last Summit at Lisbon 18 months ago.
    At Chicago, this work will focus on three areas: No. 1, an 
agreement on a strategic plan for Afghanistan. No. 2, military 
capabilities and how we can achieve and make certain of these 
capabilities in this time of austerity. And the third area is 
NATO partnerships.
    The United States has three Summit objectives: No. 1, 
charting a clear path for the completion of transition and 
reaffirming NATO's commitment to the long-term security of 
Afghanistan. No. 2, maintaining NATO's core defense 
capabilities during this period of austerity and building a 
force ready for future challenges. And, No. 3, deepening the 
engagement of NATO's partner nations in alliance operation and 
activities.
    Mr. Chairman, I would like to complete my statement here, 
as I said, submit my complete statement for the record, and go 
straight to questions.
    Thank you very much for the opportunity to appear before 
you today.
    [The prepared statement of Mr. Townsend follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe [presiding]. The chair will reserve its right to 
ask questions. I will turn to the ranking member, Mr. Meeks, 
for his questions.
    Mr. Meeks. Thank you, Mr. Chairman.
    Let me start out with this: One of the questions that I am 
most frequently asked when I travel abroad, or am meeting with 
European officials or parliamentarians, relates to the 
administration's so-called ``pivot to Asia.'' They have a 
concern, you know, those that I speak with. They ask about, 
what does that mean? Does pivoting to Asia mean moving away 
from Europe?
    So, I would like to put that question to you. What does it 
mean, and how is the concept of a pivot playing out in NATO? 
How are NATO members approaching the issue with the 
administration as we get ready to go to Chicago?
    Ms. Kaidanow. Thank you, Congressman. I think that is a 
very important question, and you are right, it is important to 
address it very forthrightly.
    What I would say is, first of all, that Europe remains a 
central preoccupation of the United States. Its security is 
essential to us, as well as its cooperation as a partner in 
terms of global endeavors. Pretty much everything we do 
globally, the Europeans are right there by our side. I think it 
is important to establish that right away. Our commitment to 
Article 5, which is the enduring commitment to European 
security, is very, very strong.
    I would say that the notion of a pivot to Asia is really a 
mischaracterization in many ways. It is not a pivot away from 
Europe to Asia. I think what our strategic defense review was 
attempting to do--and my colleague can speak to this even more 
than I can--was to posit that we have now emerged from a decade 
or more of war, essentially, conflict. And in that decade, 
perforce, we had to devote our time, our attention, our energy, 
and our resources in many ways to Afghanistan, to Iraq, to 
other things. Thankfully, we are now emerging from some of 
that.
    The question of how we utilize resources in the era after 
that is a salient one, it is important, and whether we are able 
to conserve some of those resources. So, I think the question 
for us now is really, how do we smartly, intelligently retool a 
bit, so not pivot to Asia from Europe, but maintain our 
commitment to Europe, which is just as strong as it ever was, 
but also take into account the impact of Asia and the Asia 
Pacific region as an increasingly-important part of what we do? 
So, I think we are doing both of those things very 
successfully.
    You noted that you hear from some of our allies. Well, of 
course, we have been talking to our allies extensively about 
our force posture in Europe, and so forth. We will maintain a 
very strong posture in Europe. We actually are deploying new 
capabilities--again, my colleague can speak to that as well--
but an aviation detachment in Poland, missile defense assets in 
Poland, Romania, Turkey, elsewhere. These are the kinds of 
things that I think are elements of a new approach and a new 
response to threats that are emerging over time.
    I think our European allies have been very cognizant of the 
reasons for that. I think they agree that, whereas once upon a 
time it might have made sense to keep four heavy brigades, 
heavy combat teams in Europe, that doesn't really make sense 
anymore. What makes sense now is this new approach that I 
outlined, including rotational elements from the United States 
that might help to augment NATO's response force and also train 
together with our European colleagues such that we have greater 
interoperability for the inevitable operations that will come 
our way.
    So, there is, I think, good understanding among our 
European allies as to why we are doing a number of the things 
we are doing. We have talked to them extensively. We will talk 
to them more, of course.
    Just recently, of course, Secretary Clinton and Secretary 
Panetta were there for the joint foreign and defense 
ministerial meeting to make this point, as they did in Munich 
earlier, and so forth.
    Mr. Meeks. Thank you. Because we know that, when we look at 
our values and where there are shared interests, the ones we 
turn to first and on whom we count on most in a crisis is our 
European allies.
    Let me ask Mr. Townsend in the little time we have left. 
Another issue that I have been looking at is that in the past 
NATO leaders have recognized the importance of energy security, 
and energy security is important to me. At previous Summits, 
they committed themselves to addressing these issues as an 
alliance.
    But there appears, however, to be a lack of an agreement on 
the importance of the Southern Corridor, the significance of 
the North Stream Pipeline, and the reliance or dependence of 
some NATO members on Russian energy resources.
    And so, I was just wondering, has NATO ceased to pursue the 
goal of energy securance as an alliance? I know I am out of 
time, but I am trying to sneak that in, and we will come back.
    Mr. Townsend. Thank you, Chairman. That is a great 
question, as was your first question that Ambassador Kaidanow 
so ably addressed, and that we can certainly come back to as 
well.
    But on energy security, this is something that the alliance 
has been working on for at least 10 years now and grappling 
with. It is a tough question. It is not just a military 
question or a defense-related question. It involves economies, 
finance, geography, and business. It is something that, in 
terms of finding a home, is difficult. NATO talks about this 
because it involves security and the security of allies. And 
so, those discussions we have quite a bit within the alliance, 
as we look at future challenges and what NATO can do.
    Energy security is discussed at the European Union as well, 
which certainly plays a large role in this. Nations themselves 
recognize that energy security is a security issue of the 
future that they need to grapple with now in terms of 
diversification, in terms of how can they meet their security 
needs in other ways. And so, it is something that is part of 
the context that we have to work within as we look into the 
future. We talk about future challenges in terms of ballistic 
missile proliferation or WMD. We look at it in terms of 
terrorism. But energy security is in there as well.
    The NATO role in energy security is probably more limited 
than it is in these other areas, but it is something that is 
important as planners at NATO think about future areas of 
instability, what happens if energy is denied a nation, what 
role might come to the alliance, what role might come to the 
European Union or to that particular nation, how might we have 
to help out in terms of the nation trying to handle the results 
of something coming out of an energy crisis.
    So, it is part of the context. It is something that, as the 
years go on, we are going to have to work very closely with the 
European Union and with nations to make sure we are provided 
for in facing this kind of challenge.
    Mr. Poe. The chair will recognize the gentlewoman from 
Ohio, Ms. Schmidt.
    Ms. Schmidt. Thank you, Mr. Chairman.
    This is a question to both of you. As we approach the 
Chicago Summit, I believe it is important to send a strong 
message to the nations aspiring to have NATO membership that 
the United States remains committed toward that end.
    As you both know, NATO's new strategic concept adopted at 
the Lisbon Summit in November 2010 reaffirmed the alliance's 
longstanding commitment to keep NATO's open door to any 
European country in a position to undertake the commitments and 
obligations of membership and contribute to the security of the 
Euro-Atlantic area. However, NATO hasn't added any members 
since 2009, despite the many contributions of our non-NATO 
partners such as Macedonia, Montenegro, Georgia, Bosnia, 
Herzegovina to the operations and stability of NATO.
    So, it is a three-part question. First, does NATO 
enlargement remain a priority to this administration? And if 
so, why isn't it on the Chicago agenda?
    Two, in recent remarks at the Heritage Foundation, former 
Secretary of State Condoleezza Rice spoke strongly in favor of 
NATO expansion and stated that, in her opinion, Macedonia is 
ready for full membership. Would you agree with her assessment? 
And if not, why?
    And three, in what ways is the United States assisting 
those countries, Georgia, Macedonia, Montenegro, Bosnia, to 
prepare them for NATO membership?
    Ms. Kaidanow. Thank you.
    Congresswoman, I don't think we can agree strongly enough 
with you that keeping NATO's door firmly open is in U.S. 
interest as well as in the interest of the alliance. We have 
seen over the years the incredible stabilizing impact of the 
enlargement of NATO and the inclusion of countries in Central 
and Eastern Europe. I anticipate that that process will, in 
fact, continue, and we are very committed to it.
    You asked whether this will be addressed on the Chicago 
agenda. In fact, it will. We didn't speak to it in my opening 
remarks, but I anticipate, and we have been very strongly 
supportive of, a ministerial-level that will likely be held 
with the four aspirant countries, to again underscore how 
important we believe the process of enlargement is, to make 
sure that everyone understands that that process will continue. 
And I am sure we will find other ways as well to highlight 
enlargement and to look----
    Ms. Schmidt. So, you are going to be speaking to the four 
countries, but what about to NATO members as well, to open it 
up and have the question----
    Ms. Kaidanow. Right.
    Ms. Schmidt [continuing]. Will we accept or not accept?
    Ms. Kaidanow. Such a meeting, if it is held--and I would 
anticipate that it will be, but NATO has not yet made final 
decisions--would include all allies. So, it would be the allies 
as well as the aspirants. But I think, again, the point here is 
to make sure that, both in word and in deed, we are doing 
everything we can.
    Your third question, which I will skip to, is about our 
assistance to those aspirants, which I think I detailed at some 
length in my opening remarks is fairly extensive. In each of 
those cases, we have worked very, very closely with the 
aspirant countries, both on democratic and economic reforms, 
which are also a precursor to NATO membership, but as well on 
defense reform, defense modernization, and so forth.
    You asked specifically about Macedonia. So, I will address 
that briefly. We have said, and as you articulated, I think 
former Secretary of State Rice also mentioned, that we believe 
Macedonia is ready for NATO membership. We saw at Bucharest 
that the alliance articulated that, subject to resolution of 
the name dispute with Greece. It is our deep desire and hope 
that they will, in fact, resolve that name dispute as soon as 
possible. And we very strongly support the process that has 
been undertaken by U.N. Special Envoy Nimitz, who has been 
engaged in this intensively.
    It is our hope that that will happen as quickly as 
possible, although NATO is a consensus-based organization. And 
therefore, it will take that decision as an organization. And 
so, we will invest every diplomatic effort we can in trying to 
see that that dispute is resolved.
    Mr. Townsend. Thank you for the question, which, along with 
Ambassador Kaidanow, I have to say that from the Department of 
Defense view and my own personal view, having worked with these 
nations from the very beginning of Partnership for Peace and 
the whole enlargement process back in the mid-nineties, we on 
an everyday basis in the Pentagon as well as at NATO are 
working with these nations in terms of helping them in their 
defense reforms, in mil-to-mil, if you will, military-to-
military channels, working specifically with their militaries 
to get them ready for membership, make sure they are able, 
interoperable, and a very credible candidate when their time 
comes to come into the alliance.
    I want to say that, as far as Georgia is concerned, we have 
been very pleased with the kinds of work that Georgia has been 
able to do on its defense side. It was pointed out earlier that 
they are doing some very good work in Afghanistan, in a very 
tough area of Afghanistan. Our military, our Marines, have been 
working with them. Secretary Panetta, in fact, has talked and 
visited with Georgians as well.
    So, this is something that, as the Ambassador said, we have 
taken----
    Mr. Poe. Summarize your statement there, Mr. Townsend.
    Mr. Townsend. Okay. Thank you.
    We take it very seriously and we take it almost on a daily 
basis.
    Thank you.
    Mr. Poe. The chair recognizes Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    Ambassador Kaidanow, could you please tell me that the 
administration is working actively to get Turkey to reverse its 
position on blocking Israel from attending the Summit?
    Ms. Kaidanow. Congressman, just to say, first of all, 
Israel is an active and a valued partner for the alliance and 
for the United States, but for the alliance, through what is 
know as the Mediterranean Dialogue. The Mediterranean Dialogue 
is essentially a grouping of seven countries from that region.
    There has been no contemplation of a Mediterranean Dialogue 
Summit-level meeting at Chicago. So, I think we ought to be 
clear on that.
    However, let me restate and say again how important and 
valued a partner Israel is for NATO. The United States is 
strongly supportive of that partnership. We hope that that 
partnership will continue and, in fact, we are very much 
engaged in Mediterranean Dialogue events. There was a meeting 
in Morocco in March to which we sent a representative from the 
State Department as well as other representatives. So, we are 
very committed to the NATO/Israel partnership, and we will 
continue to be.
    Mr. Engel. But what is Turkey objecting to, then, if there 
are no plans to meet and discuss this?
    Ms. Kaidanow. Again, the meetings that have been 
contemplated for Chicago are ISAF meetings--ISAF meetings are 
important, but Israel is not a contributor to ISAF--as well as 
an operational partners' meeting, which is also not something 
that Israel has been involved in.
    So, I can't speak to what it is the Turks are speaking to, 
but I can tell you exactly what is the case, which is, again, 
that Israel is an incredibly valuable partner for NATO and we 
are strongly supportive of that.
    Mr. Engel. Are we telling Turkey to knock it off?
    Ms. Kaidanow. We have been very clear with all of our 
alliance partners, including the Turks, about our feelings with 
respect to Israel as a valued partner.
    Mr. Engel. Okay, but it is not a matter of Israel being a 
valued partner. It is a matter of Turkey, out of the blue, 
because of some kind of personal dispute, in my estimation, not 
acting like a country that tries to do what is good for the 
alliance, but acting like a petulant child trying to use the 
alliance for its own purposes. I think that is important.
    Ms. Kaidanow. Congressman, we have been very sorry, very 
regretful to see the deterioration in relations between Turkey 
and Israel. And it is our view that these are two important and 
valuable partners to us, and we would like to see them repair 
that relationship as quickly as possible.
    Mr. Engel. All right. Let me ask you this, Ambassador: You 
know Kosovo as well as anybody here. As a former Ambassador, 
you are very much aware of--you and I have had many discussions 
about how much they want to join the key Euro-Atlantic 
institutions, including both NATO and the EU. They are making 
that progress toward that end. Yesterday, Brunei, the 90th 
country, recognized them. But the progress is very slow.
    When Serbia became an EU candidate country, the EU 
immediately began a study on whether Kosovo should get a 
Stabilization and Association Agreement. While Serbia has been 
granted visa liberalization by the EU, Kosovo has not even been 
presented a roadmap for visa liberalization.
    Likewise, Kosovo aspires to eventual NATO membership, but 
the future is unclear. All of the other Balkan countries are 
either in NATO or members of the Partnership for Peace, not 
Kosovo. So, I think it is time for Kosovo's second-class status 
to end.
    I am wondering if you could comment on that. Please 
describe whether Kosovo has a future in NATO. What is her path 
to eventual NATO membership? When can she join the Partnership 
for Peace and other NATO programs for other aspirants? And are 
there ways the Kosovo Security Forces can partner with U.S. 
forces?
    Ms. Kaidanow. Thank you, Congressman.
    I would say several things. First of all, I think you know 
that the United States has been incredibly supportive of 
Kosovo's territorial integrity, its sovereignty, its 
independence. We are strongly in favor of supporting Kosovo's 
Euro-Atlantic future.
    It is important, I think, in terms of regional stability as 
well as European stability more broadly, that Kosovo continue 
down a path toward both EU integration and eventually toward 
NATO accession as well, although that is a far distance away.
    The one thing I would say, though, is we do have the 
institutional issue of some non-recognizers of Kosovo in the 
alliance. That presents certain obstacles that we do have to 
contend with.
    I will say this: The United States is incredibly and 
strongly supportive of a future relationship between NATO and 
the Kosovo Security Force, the KSF. We think that there is an 
appropriate role for NATO to continue to help train the KSF 
within its mandate, which has been clear. And I think that 
there is room there for activity and for further kinds of 
interaction. We will continue to be supportive of that at NATO.
    The rest of the things will follow. But I think, again, for 
now, we have a path forward and we want to pursue it.
    Mr. Engel. Thank you.
    If I might be able to slip in one more question, Mr. 
Chairman?
    Mr. Poe. Yes.
    Mr. Engel. Thank you. Thank you.
    Let me ask Secretary Townsend, I would like to hear from 
you, actually, also from Ambassador Kaidanow, that the U.S. has 
no plans to reduce U.S. forces in KFOR in the foreseeable 
future.
    During the last few years, we and our European partners 
have been reducing the number of troops in KFOR, but with 
increased tensions with Serbia in northern Kosovo, that process 
has been reduced. But I have heard that additional rapid-
reaction troops have recently arrived.
    I personally think that we should increase by at least a 
few battalions our force presence in Kosovo at least through 
the end of the year. With Serbian elections raising the 
temperature and continued lawlessness of criminality continuing 
in northern Kosovo, we simply cannot be too careful.
    So, I am wondering if either one of you, or both, could 
describe plans for U.S. force commitments to KFOR now and for 
the foreseeable future? Are there enough troops in KFOR to 
handle likely threats to peace and stability? And will KFOR 
work with UEX and Kosovo police to end the Serbian lawlessness 
in northern Kosovo?
    Mr. Townsend. Thank you, Congressman.
    The situation in Kosovo, as we have been discussing right 
now, is one that causes concern. We rely very much on the KFOR 
commander and on SACEUR to advise us and to advise the alliance 
on what he feels he needs.
    Right now, the word we are getting is that he has got the 
forces that he needs in terms of KFOR there. As you point out, 
UEX is there. There are other actors in the field. The 
situation on the ground will certainly dictate what the size of 
KFOR and what the alliance actions will be there.
    Right now, we feel that the KFOR size is right. I think for 
the foreseeable future this will be the case. But we talk 
frequently to the KFOR commander and to SACEUR to make sure 
that, as things change, we are ready to take action.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Mr. Poe. I am going to center on two countries, Georgia and 
Macedonia, and that is the two I want to address. Both of them 
have troops in Afghanistan; Georgia, 950, I believe, going to 
go up to a battalion level. And I want to talk about them 
first.
    I was in Georgia a week after the Russians invaded. It made 
the international news for a couple of days and, then, nobody 
is talking about it except the folks in Georgia. They still 
don't like the Russians there.
    I understand conflicting reports. But one reason Georgia 
doesn't get into NATO is because the Russians are still there. 
How does that factor in, if it does, in why Georgia is still 
not in NATO? Then, I will address Macedonia.
    Ms. Kaidanow. Thank you.
    Let me state right away that it is our firm conviction that 
no sovereign nation should be in any way circumscribed from 
choosing its own alliances, and that, at the end of the day, it 
is for every nation to decide on its own allegiances and 
alliances. So, again, the Russian presence in the occupied 
areas of Georgia are not an impact or don't have an impact on 
our overall decisions with respect to Georgia.
    The United States, again, has been very strongly supportive 
of Georgian sovereignty, of Georgian territorial integrity, as 
has NATO. I think we will continue to be in ways that are 
demonstrable. I spoke to some of those in my opening statement.
    Just recently, as I said, the Presidents of the United 
States and of Georgia met here in Washington, had a very good 
set of conversations. We anticipate that we will have further 
conversations at high levels over the next little while. And 
so, again, I think our commitment has been shown.
    Mr. Poe. Madam Ambassador, I am certainly no diplomat. I 
have been called a lot of things in my life, but diplomat is 
not one of them.
    The Russians are still there. I think they have occupied a 
sovereign country. Twenty percent or twenty-five percent of 
their nation is occupied, the Georgians. What is being done 
about that, if anything, besides talking about it?
    Ms. Kaidanow. I think, I mean, the reality of the situation 
is that what we are doing is actually multiple aspects of what 
we are doing on behalf of Georgia. What we have done 
rhetorically is important. I think it continues to be important 
that we assert our continuing support for Georgia's territorial 
integrity and its sovereignty. That is not unimportant; it is 
quite important.
    But, in a practical sense, what we are doing, again, is we 
are supplying support for Georgia's multiple efforts across the 
board to sustain reform, democratic reform, economic reform, 
all of which are important and where Georgia has made some 
really significant and important strides.
    You noted, Mr. Chair, that we are actually witnessing some 
of the benefits of that because Georgia has now, again, 
contributed in a very meaningful way in Afghanistan, continues 
to so do, without caveats, by the way. So, we are recognizing 
all of those things. We acknowledge them, and in ways that are 
much more concrete even--again, we are assisting them. This 
administration approved the final tranche of $1 billion worth 
of assistance for Georgia. So, I think in all of those ways, 
again, we have been very forthright and very forthcoming and 
very appreciative of Georgia's efforts.
    Mr. Poe. Let's turn to Macedonia. Macedonia, likewise with 
Georgia, has troops in Afghanistan serving along with 
Americans, NATO troops, or even some of our NATO troops, our 
other NATO allies have not, in my opinion, shared the 
responsibility that they have under NATO. They are not in NATO 
because Greece continues or has blocked their admission into 
NATO, which is their right under the fact that they are a NATO 
member.
    My understanding is that they blocked the membership of 
Macedonia into NATO when Macedonia agreed to apply for 
membership under the name the Former Yugoslav Republic of 
Macedonia. With that application, the Greeks then said no, 
although in December of last year the International Court of 
Justice ruled that Greece violated an agreement it had with 
Macedonia when it vetoed that membership. How does that factor 
into NATO membership of Macedonia with that International Court 
ruling against Greece, if it does?
    Ms. Kaidanow. Congressman, again, I think we have 
articulated many times, and we will say it many more times, 
that we are strongly supportive of Macedonia's accession to 
NATO under the conditions that were laid out by the allies at 
Bucharest. That means that, as soon as the name dispute is 
resolved, we will be in a position to allow Macedonia into the 
alliance.
    Mr. Poe. Time is short.
    So, the court ruling is irrelevant as to whether or not 
they are going to get in, because the agreement is, if I 
understand you correctly, that Macedonia and Greece have to 
work out the name issue in spite of what the court ruled?
    Ms. Kaidanow. I wouldn't say it is in spite of the court 
ruling, and we do hope that the court ruling will provide the 
impetus for them to find a resolution, to which, again, we will 
invest some diplomatic effort. But the problem is that they 
have to find a mutually-acceptable resolution. It is a 
consensus-based organization, you are correct.
    So, I think that is the ultimate point here, is we will 
help. We can help in some ways, but, ultimately, the two sides 
have to find a way forward.
    Mr. Poe. You wouldn't have any ideas on how they could 
resolve that, would you?
    Ms. Kaidanow. We always have good ideas. But, again, it is 
really up to them.
    I do want to say that I think they have engaged themselves 
in some productive discussions. We want to encourage that. I 
think that we hope, certainly after the Greek elections, which 
are nigh upon us, that we will see, again, another effort on 
their part to actually engage.
    Mr. Poe. All right. Thank you.
    Mr. Deutch?
    Mr. Deutch. Thank you, Mr. Chairman.
    I have a question now about Turkey again, just to follow up 
on what my colleague, Mr. Engel, discussed with you. I 
understand from your comments earlier that there are no 
Mediterranean Dialogue-level talks planned for Chicago. Is the 
reason that there are no Mediterranean Dialogue talks planned 
because Turkey objected to having them at all?
    Ms. Kaidanow. No. No. There just has not been contemplation 
of a Summit-level--and, in fact, as far as I am aware, there 
has never been a Summit-level dialog of the Mediterranean 
Dialogue, in other words, a Summit-level meeting of the 
Mediterranean Dialogue. It just hasn't occurred.
    Mr. Deutch. I heard you explain that you don't know, since 
there is no dialog planned, Mediterranean Dialogue-level 
planned, you are not sure what it was Turkey was objecting to. 
If I can refer back to the earlier plan earlier in the year for 
Israel to contribute a missile ship to a NATO mission in the 
Mediterranean Sea, Active Endeavour, my understanding there is 
that that contribution was never made because Turkey objected 
and blocked that.
    Secretary Townsend, I can ask you as well.
    Ms. Kaidanow. Maybe my colleague has more to offer on that. 
I am not aware, actually, of that particular incident or that 
particular issue, but we can certainly look at it.
    Jim?
    Mr. Townsend. Let us take that question. I am not aware of 
that, either, but let us check into it and get back to you or 
your staff.
    Mr. Deutch. Okay. Just as you explore, my understanding 
from reports just today is that that would have been the first 
time that Israel actively participated in one of NATO's 
military operations. If you could both look into that and let 
us know if there are reports that they were asked not to 
participate because of a decision by Turkey, that would be most 
helpful for us to have that information.
    Secretary, you also said in your exchange with Mr. Engel 
that there has been an invaluable relationship between Israel 
and NATO. Can you describe Israel's participation in NATO 
activities and some of the benefits of that participation?
    Ms. Kaidanow. The Mediterranean Dialogue is a forum, 
essentially, for those countries in that region to come 
together and discuss a number of different kinds of issues on 
which, hopefully, again in the future we can find a little bit 
more granularity and a way to progress.
    In fact, in this meeting in Morocco in March, there were a 
number of items on the agenda that were treated. I think Israel 
has an interest in a lot of that because, again, it is looking 
to expand its partnerships not just with NATO, but with some of 
the other countries involved. I think there is a lot of scope 
there for discussion. There has not necessarily been things 
that I can point to concretely that have been done thus far, 
but that is not to say that there isn't quite a lot of room for 
other kinds of endeavors.
    If you would like more information on that, we can provide 
that as well.
    Mr. Deutch. I would. I would like this.
    Secretary Townsend, you mentioned earlier that you are 
pleased with Georgia's progress on defense. Georgia, as you 
know, has been the second-largest non-NATO contributor to ISAF 
forces. If their NATO candidacy continues to stall, do you see 
this affecting Georgia's strategic relationship with NATO, 
other NATO countries, or the United States?
    Mr. Townsend. Thank you.
    Well, you know, in terms of its relationship with NATO, 
there is a NATO Georgia Commission which meets to assist the 
Georgians in making reforms and doing things to make sure that 
they stay and continue to build as a very good candidate to 
come into the alliance. So, there is already an institutional 
link between NATO and the NATO allies and Georgia.
    On a bilateral basis with the United States, I did say that 
we have been very impressed with not just their own military 
reform efforts, but also their abilities that we saw on the 
ground in Afghanistan. So, this relationship between the United 
States bilaterally, between our Defense Department and the 
Georgians and our military will always be strong as well.
    They work with other allies in Afghanistan, too. So, I 
think when you talk to many allies and they think about Georgia 
as a member of the alliance, they look at what the Georgians 
have done, the work in the NATO Georgia Commission, I think it 
is a very good story that we are all seeing. It is a matter of, 
as the Ambassador said, going through and making sure that as 
far as we are concerned on the defense side, that when they are 
ready to come into the alliance, that they are at their very 
best state.
    Mr. Deutch. And if I could just ask a yes-or-no question, 
Mr. Chairman, just one last point of clarification?
    Secretary, on the Mediterranean Dialogue piece again, I 
understand there are no Mediterranean-Dialogue-level talks in 
Chicago at the Summit. I assume as well that, as a result, 
since there won't be those talks, that they are no non-NATO 
Mediterranean Dialogue members who will be coming to Chicago to 
participate.
    Ms. Kaidanow. That is not necessarily the case, again, 
because some of these memberships in partnership organizations 
are overlapping. So, in other words, it may be the case that 
others that are members of the Mediterranean Dialogue would be 
there, but for other reasons, either for ISAF or for the 
operational partners' discussion.
    Mr. Deutch. Okay. I would welcome some details in response 
to that question as well.
    Ms. Kaidanow. Sure. Sure.
    Mr. Deutch. Thank you. Thank you, Mr. Chairman.
    Mr. Burton [presiding]. Thank you, Mr. Deutch.
    I just have a couple of comments, and I apologize for my 
tardiness. I had to do something for my spouse. She has a 
little bit of a health problem. So, I apologize for not being 
here for your whole testimony.
    I have got two things I would like to mention. First of 
all, NATO was very instrumental and helpful in Libya. As I 
mentioned in my opening remarks, there are a number of us that 
did not mind seeing Colonel Gaddafi leave the scene. But the 
military attack on Libya with the help of the United States did 
involve billions of dollars, at least a couple of billion 
dollars of military funds. It also involved, I am confident, 
some boots on the ground, although they didn't say that there 
were any. I think it was there for probably intelligence 
purposes.
    But, nevertheless, I hope that it will be conveyed to this 
administration, just like any other administration, that unless 
it is compliant with the Constitution or the War Powers Act, 
that the President does not have authority to take us into a 
military conflict without the support of Congress, Democrats or 
Republicans. I think it is extremely important that that 
message be sent very clearly, especially during this NATO 
meeting, because I know there will be people talking about 
Syria and going in there and maybe going into someplace else 
like the Sudan, where 400,000 people have been killed.
    But before we go into conflict, the case needs to be made 
to the American people through their congressional 
representatives. I hope that message will be very clear, and I 
hope you will convey that.
    The second thing I would like to say is that I have been 
over to Europe, along with my colleague, Mr. Meeks, and others. 
We were there very much concerned about the economic problems 
that Europe faces because it will have an impact on us, without 
any doubt, if everything goes south over there. So, we are very 
concerned about that.
    Even though these countries that are having some 
difficulties right now are facing many of the problems we are, 
they still need to pony-up their 2 percent of GDP, as Secretary 
Gates said, to help us. We can't bear the burden of military 
action or supporting NATO without the help of our NATO allies. 
And there are only three of them that I think are doing that 
right now.
    So, I hope that gets to them loud and clear. I don't know 
if any media is here or not. But it is extremely important that 
our NATO allies, even though I know there are economic problems 
over in Europe, that they are willing and ready and able to 
support NATO with their 2 percent contribution.
    If you have any comments on that, that is fine.
    Ms. Kaidanow. I would just say, Mr. Chairman, that we 
understand the importance of the commitments that allies make. 
They understand the importance of those commitments, too, I 
would say.
    I recognize that not all of them have met their 2 percent 
benchmark, and that is something we continue to press for. But 
I would also say that we are really struck by, even in a time 
of fiscal austerity and a time of difficulty in terms of 
financial crisis, a number of our colleagues and a number of 
our allies have really stuck to their commitments, particularly 
with respect to Afghanistan. They are very committed to the 
2014 timeline that was outlined in Lisbon. I think we have seen 
really good solidarity in terms of their willingness to stick 
in with us. We should acknowledge that.
    Mr. Burton. Well, I think that is great, and I do 
appreciate that. I know that they are there, a number of those 
countries. But we have a $15 trillion, almost $16 trillion 
national debt right now.
    Ms. Kaidanow. Agreed.
    Mr. Burton. And the country faces fiscal problems. And so, 
if we are going to do our part, and we want to do our part, we 
need to make sure that, even though they are having some of 
these problems, they know that they need to do it as well.
    I yield the balance of my time to my good buddy, Mr. Meeks.
    Mr. Meeks. I just wanted to follow up real quick on 
something that you just indicated. I know that Secretary 
General Rasmussen has been clear that NATO has not discussed or 
begun even a preliminary planning for a possible intervention 
in Syria. But the debate is raging still here, whether you talk 
to Senators Lieberman or McCain, who believe that NATO should 
at least be actively considering the possibility.
    And so, I was just wondering. I mean, I think that Mr. 
Burton indicated that we know that that possibility is going to 
come up. Well, people are talking about it.
    I would just like to get your thoughts on whether or not 
NATO should be considering the lives that are being lost. I 
know the justification for going into Libya. I wonder what your 
thoughts are. Should we at least be discussing it?
    Ms. Kaidanow. Congressman, I think it is still our deep 
desire to try to resolve the issues in Syria in a peaceful 
manner that allows for a transition away from the Assad regime 
to something else that will cause less bloodshed rather than 
more.
    I think we are all watching the situation there very, very 
carefully. It is not an easy one, obviously. We are still 
weighing the best way to address this, and we are doing it in 
cooperation with a number of our partners, European partners, 
in particular.
    I don't want to speculate necessarily on what NATO's role 
should or should not be. I will just say, again, that we are 
all watching it very, very carefully, particularly, obviously, 
those countries that are bordering on Syria, including Turkey, 
including some others. So, we want to just keep an eye on it 
and do everything that we can as the U.S. Government, again, to 
ensure a peaceful transition and to make sure that we end the 
bloodshed as quickly as possible.
    Mr. Burton. I want to follow up on that real quickly, and 
then we will go to our next panel. That is, NATO does not 
represent the Congress of the United States. I mean, the 
Congress of the United States represents the American people. 
If the case is to be made that NATO should take some action, 
then the case has to be made to the Congress of the United 
States, so that the people's representatives will pass a 
resolution to take action.
    In previous administrations, almost without exception, we 
have not taken any military action without the consent and 
support of the Congress. That is in compliance with the 
Constitution and the War Powers Act.
    And so, the President, to his credit, has been reluctant to 
take any action and has not talked to Congress about it. But I 
hope it is conveyed to him very clearly that, if he thinks it 
needs to be done, if our NATO allies think it needs to be done, 
they need to come to Mr. Meeks, myself, and other Members of 
Congress and make the case, and for us to pass a resolution to 
give the President the authority under the Constitution and the 
War Powers Act.
    Thank you very much.
    We will go to our next panel.
    We really appreciate your being here.
    Ms. Kaidanow. Thank you.
    Mr. Townsend. Thank you very much.
    Mr. Burton. The next panel consists of Damon Wilson. He is 
the Executive Vice President of the Atlantic Council, where his 
work is committed to advancing a Europe whole, free, and at 
peace. From 2007 to 2009, Mr. Wilson served as a Special 
Assistant to the President and Senior Director of European 
Affairs at the National Security Council. Mr. Wilson has 
previously served as the Executive Secretary and Chief of Staff 
at the U.S. Embassy in Baghdad and as Deputy Director of the 
private office of the NATO Secretary General, among other 
positions.
    Mr. Wilson received his BA in political science from Duke--
you have got a good basketball team there usually--and his MA 
from Princeton University's Woodrow Wilson School for Public 
and International Affairs.
    Mr. Luke Coffey studies and writes on U.S./UK relations as 
the Margaret Thatcher Fellow at the Heritage Foundation. He 
focuses, in particular, on defense and security matters, 
including the role of NATO and the European Union in 
transatlantic security.
    Before joining Heritage, the Margaret Thatcher Center for 
Freedom, in 2012, Mr. Coffey served at the UK Ministry of 
Defense as a Senior Special Advisor to then-British Defense 
Secretary Liam Fox. He was the only non-UK citizen appointed by 
Prime Minister David Cameron to provide advice to senior 
British ministers.
    Mr. Coffey's work in British politics followed his service 
to the United States as a commissioned officer in the U.S. 
Army's Military Police Corps. He spent his entire time on 
active duty overseas and was stationed in Italy with the Army's 
Southern European Task Force. In 2005, Mr. Coffey deployed to 
Afghanistan for a year. He is responsible for developing 
theater-level policies for enemy detainees in U.S. custody and 
support of counterinsurgency strategy.
    Mr. Coffey received his MS in politics and government at 
the European Union from the London School of Economics, and he 
also holds a BA degree in political science from the University 
of Missouri, St. Louis, and has an associate arts degree in 
military science from Wentworth Military Academy in Lexington, 
Missouri.
    Dr. Stephen Flanagan holds a Henry A. Kissinger Chair in 
Diplomacy and National Security at CSIS. Before joining CSIS in 
2007, he served as Director of the Institute for National 
Strategic Studies and Vice President for Research at the 
National Defense University for 7 years. He held several senior 
positions in government between 1989 and 1999, where he helped 
develop U.S. strategy for the post-Cold War era. In 2009 and 
2010, he served as lead advisor to former Secretary of State 
Madeleine Albright in her capacity as chair of the group of 
experts that developed the foundation for NATO's strategic 
concept.
    Earlier in his career, he was a professional staff member 
of the U.S. Senate Select Committee on Intelligence, and he 
also held faculty and research appointments at Harvard 
University's Kennedy School of Government, the National War 
College, the International Institute for Strategic Studies, and 
the Council on Foreign Relations.
    He earned his BA in political science from Columbia 
University in 1973 and his PhD in international relations from 
the Fletcher School of Law and Diplomacy, Tufts University, in 
1979.
    You guys have great credentials. I am very impressed with 
that.
    So, first, we will just start with you, Mr. Wilson. If you 
could keep your opening remarks to 5 minutes, it would be 
great. We will try to be liberal, if necessary. Oh, excuse me, 
conservative but liberal. [Laughter.]

 STATEMENT OF MR. DAMON WILSON, EXECUTIVE VICE PRESIDENT, THE 
                        ATLANTIC COUNCIL

    Mr. Wilson. Thank you, Chairman Burton, Ranking Member 
Meeks. It is a pleasure to be with you today.
    As NATO leaders gather in Chicago next month, they will 
seek to achieve consensus on a difficult mission in Afghanistan 
to protect military capabilities in a time of deep budget cuts 
and to forge more meaningful partnerships with allies in Asia 
and the Middle East. I would like to make the case that in 
Chicago NATO should also make room for a serious discussion, a 
future enlargement, and pursue a more ambitious partnership 
agenda. Furthermore, I believe the major allies must look 
beyond Chicago and focus on their own commitments within the 
alliance to ensure NATO's health into the next decade. I will 
briefly address these three themes and submit my full testimony 
for the record.
    First, enlargement. NATO says that Chicago will not be an 
enlargement Summit. Indeed, the allies are not prepared to 
offer invitations to candidate nations. However, it would be a 
mistake not to use Chicago to give a boost to future 
enlargement.
    First, the aspirants have earned it. Each has demonstrated 
it is able to contribute to security, including by providing 
forces to Afghanistan.
    Despite economic challenges, allies should remember that 
enlargement makes Europe more stable and NATO stronger. In 
Chicago, leaders can make clear that NATO's open-door policy 
remains a cornerstone of the alliance's strategy.
    Specifically, the alliance should underscore the urgency of 
resolving Macedonia's only obstacle to membership, the dispute 
with Greece over Macedonia's name; recognize Montenegro's rapid 
progress and uniquely-good relations with all its neighbors; 
make clear that NATO's commitment that Georgia will become a 
member is genuine, and agree that Georgia's path to membership 
is through the NATO Georgia Commission, and welcome Bosnia/
Herzegovina into the membership action plan, as it meets a key 
final benchmark.
    Chicago should also announce that all nations of the 
Western Balkans who desire membership and are prepared to meet 
alliance obligations will be welcomed into NATO as they 
qualify, to include Serbia and Kosovo. And NATO leaders could 
commit to take decisions on enlargement at their next Summit in 
2014. Such a statement would signal NATO's intention to enlarge 
and further incentivize candidates to implement tough reforms.
    In conjunction, Washington, Paris, and Berlin should launch 
a concerted serious strategy to resolve the Macedonia name 
issue once and for all. With this approach, NATO can ensure 
that the lack of invitations does not signal that the 
enlargement process is stalling.
    Second, ambitious partnership initiatives. Countries such 
as Australia, Sweden, the UAE, and Jordan have been crucial 
partners in Libya and Afghanistan. For NATO to remain effective 
in an era of borderless threats and emerging powers, it will 
have to develop stronger global partnerships. Chicago will 
spotlight the role of these partners, but a Summit can achieve 
more.
    First, the Partnership for Peace should end its geographic 
limitations and open up its charter and programs to any nation 
that seeks to cooperate with the alliance, regardless of 
geography.
    Second, the alliance should introduce a program for those 
who desire closer interoperability with NATO, short of 
membership, such as Sweden. These partners should be able to 
complete a process to qualify as NATO interoperable armed 
forces and, as such, be eligible for special access to alliance 
structures, including participating in decisions for operations 
in which their forces are deployed.
    Third, NATO allies should help transformations in the 
Middle East and North Africa succeed by opening up the toolkit 
that proved so effective in assisting the transitions of 
nations in Central and Eastern Europe.
    And finally, rather than pivot from Europe to Asia, the 
United States should consider an initiative that binds our 
European and Canadian allies with America's specific allies as 
a precursor to ultimately forging alliances with the alliance.
    Finally, preparing for the next decade. Beyond the formal 
agenda in Chicago, I believe leaders must begin to repair a 
growing rift within the alliance. NATO's credibility is 
threatened by the debt crisis and major cuts in defense 
spending. The crisis has weakened Europe's military 
capabilities, sapped its ambitions for global leadership, and 
called into question U.S. leadership within the alliance.
    An alliance adrift would be an historic, strategic setback 
for the United States. NATO remains home to the United States' 
most capable and willing allies. They serve as force 
multipliers for the United States foreign policy worldwide. The 
best example is 40,000 troops in Afghanistan.
    Therefore, for NATO to thrive, the United States will have 
to demonstrate strong leadership of the alliance and Europe 
will have to maintain its global ambitions. If the U.S. 
disengages, it will find Europe less willing to act with us 
globally. So, as we draw-down forces and begin to end over a 
decade of continuous operations, the U.S. military must 
redouble its efforts to train with allied forces to preserve 
their ability to fight together.
    But U.S. leadership is no substitute for European political 
ambition. All allies have a responsibility to strengthen NATO, 
but France, the United Kingdom, Germany, and Turkey will 
determine whether Europe remains our top global partner. France 
needs to continue President Sarkozy's approach of cooperating, 
rather than competing with the United States. The United 
Kingdom must maintain the ambition and the defense investments 
necessary to preserve its special relationship with Washington. 
And Germany must begin to show the same level of ambition to 
influence global events as it does for its economic leadership.
    And Turkey, NATO's only member growing in influence, should 
be challenged to act more responsibly within NATO by offering 
it a position of leadership in the alliance commensurate to the 
leading role it plays in the emerging Middle East.
    With the right mix of U.S. leadership, European ambition, 
and stronger global partnerships, NATO and Chicago can begin to 
trade its dim and dismal future that Secretary Gates warned of 
for another decade of success.
    Thank you.
    [The prepared statement of Mr. Wilson follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. Thank you, Mr. Wilson.
    Mr. Coffey?

  STATEMENT OF MR. LUKE COFFEY, MARGARET THATCHER FELLOW, THE 
                      HERITAGE FOUNDATION

    Mr. Coffey. Mr. Chairman, Ranking Member, members of the 
committee, I am honored to speak before your esteemed committee 
about the upcoming NATO Summit in Chicago.
    With your permission, Mr. Chairman, I will summarize my 
full statement that I would like to submit to the record.
    Having lived and worked in Europe before joining the 
Heritage Foundation, I have firsthand understanding why a 
strong transatlantic relationship is a necessity for America 
and not just a luxury. This is why the Summit in Chicago will 
be so important.
    The top three items on the Summit's agenda will likely be 
Afghanistan, Smart Defense, and NATO partnerships. Mr. 
Chairman, I would like to take these in turn.
    First, Afghanistan. For the Chicago Summit to be considered 
a success, two outcomes regarding Afghanistan must be realized. 
First, even as more of the country is transitioning from ISAF 
to Afghan security lead, this cannot be used as an excuse for 
our NATO members to leave the country prematurely. Any 
withdrawal of ISAF forces from Afghanistan should be based on 
improved security conditions on the ground and on sound 
military advice. When these security conditions are met, NATO's 
eventual withdrawal from Afghanistan should be a phaseout and 
not a walkout. There should be no rush to the door.
    Supporting this, the conditions-based language that was 
used in the 2010 Lisbon Summit declaration should also be used 
in the Chicago Summit declaration. Secondly, there must be a 
clear commitment made by NATO to Afghanistan post-2015, in 
particular, regarding the financial support for the AMSF. So 
far, the United Kingdom, with the third largest GDP in NATO, 
has been the only country to publicly commit funds for the AMSF 
after 2015. However, with the budgetary requirements of $4 
billion per annum, the $110 million that the UK has pledged 
will pay for the first 10 days of the year. So, in this area, 
NATO has a long way to go.
    After Afghanistan, Smart Defense will feature on the 
Summit's agenda. Smart Defense aims to encourage allies to 
cooperate in developing, acquiring, and maintaining military 
capabilities in a more economically-efficient manner in this 
age of austerity. At the Summit, we expect NATO to agree to a 
number of Smart Defense measures. While the aims of Smart 
Defense are noble, I fear that the initiative is likely to 
amount to little beyond a list of aspirations if there is no 
new funding attached to these proposals.
    As Libya pointed out, Europe relies too much on the U.S. to 
pick up the slack when key enablers are required for alliance 
operations. This is a result of a decrease in defense spending 
across Europe combined with a lack of political will to use 
military capability when and where it may be needed.
    Mr. Chairman, as you have already pointed out, only three 
of the 28 NATO members meet the 2 percent mark of GDP spending. 
As expected, France fell below the 2 percent mark in 2011. 
Spain, with the world's 12th largest economy, was only able to 
spend less than 1 percent of GDP on defense.
    To put this into perspective, with an annual budget of $4.5 
billion for the NYPD, New York City spends more in policing 
than 13 NATO members spend on their defense. Spending on EU 
defense initiatives also exacerbates the dire financial 
situation since it can divert scarce resources away from NATO. 
Every euro or pound that is spent on EU defense is one less 
that can be invested into the NATO alliance.
    For this reason, the U.S. should send a clear message that 
it does not support deeper EU defense integration. The language 
describing Smart Defense may read well in a Summit declaration, 
but until there is real money backing up real investment, 
delivering real capability to the battlefield, Smart Defense 
will be meaningless to the men and women serving on the 
frontlines.
    Finally, the issue of NATO partnerships. In light of the 
2011 popular uprisings across North Africa and the Middle East, 
there is a renewed focus on how NATO works with regional 
partners. NATO has done little to enhance the Mediterranean 
Dialogue and the Istanbul Cooperation Initiative. This needs to 
change.
    A step in the right direction out of Chicago would be a 
formal invitation for Libya to join the Mediterranean Dialogue. 
Building on lessons learned, working with Gulf states during 
the Libya operation, there could be more concrete proposals to 
enhance the Istanbul Cooperation Initiative by expanding its 
membership or agreeing to individual partnership and 
cooperation programs with the Gulf states.
    Another aspect of NATO's partnerships is enlargement or, in 
the case of Chicago, the lack thereof. Regarding enlargement, 
there are two specific issues I would like to highlight. The 
first is Georgia. Georgia spends approximately 4 percent of GDP 
on defense and, as was already mentioned, will soon become the 
largest per-capita troop contributor to the ISAF mission in 
Afghanistan. The Summit declaration must include strong and 
clear language reaffirming NATO's commitment to Georgia's 
eventual membership to the alliance.
    Secondly, Macedonia should have been given full membership 
4 years ago and should be given membership at Chicago. It is an 
absurdity that the Greeks, who, frankly, relied heavily on the 
financial goodwill of their European neighbors, continue to 
veto Macedonia's membership because of a name dispute. And the 
U.S. should apply more pressure to the Greeks to agree to a 
compromise with Macedonia.
    In conclusion, it is in America's interest to see a 
successful Summit. With the perception that the administration 
is shifting its defense priorities from Europe to Asia, 
America's NATO allies should not be forgotten. NATO has done 
more to promote democracy, peace, and security in Europe than 
any other multilateral organization, including the European 
Union. It is essential that the United States continues to be 
an active participant in the alliance's future.
    Thank you, Mr. Chairman. I look forward to taking your 
questions.
    [The prepared statement of Mr. Coffey follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. Thank you, Mr. Coffey.
    Mr. Flanagan?

STATEMENT OF STEPHEN FLANAGAN, PH.D., HENRY A. KISSINGER CHAIR 
 IN DIPLOMACY AND NATIONAL SECURITY, CENTER FOR STRATEGIC AND 
                     INTERNATIONAL STUDIES

    Mr. Flanagan. Thank you, Mr. Chairman. It is an honor to be 
here before you today, and, Mr. Meeks, coming back.
    I have a prepared statement that reviews the political and 
strategic context of the Chicago Summit and offers some 
perspectives from the vantage point of U.S. interest in each of 
the three principal elements of the Summit agenda: Afghanistan, 
military capabilities, and partnerships. I also comment on some 
of the missing elements of the agenda that we have touched on 
already today: Enlargement and the further development of 
partnerships, but also the Nuclear Posture Review, the Defense 
and Deterrence Posture Review, which we haven't touched on yet 
today.
    But I would ask that my prepared statement be made 
available for the record, sir.
    The vision and the mission statement articulated in the 
2010 Lisbon Summit, the strategic concept which articulated a 
notion of active engagement and modern defense remains valid. I 
think the Chicago Summit needs to illustrate that the alliance 
is actually implementing and delivering on those Lisbon 
decisions, particularly on Afghanistan.
    But, given the dramatic changes in the international 
environment and in the fiscal situation in both Europe and the 
United States, the Obama administration and other allied 
governments I think have rightly chosen to make this more than 
an implementation Summit and to demonstrate that they are 
adjusting and adapting NATO's strategy to cope with these 
developments.
    The Chicago Summit, on a political basis, also needs to 
reaffirm both sides of the transatlantic commitment. We have 
touched on some of this already, as members of the committee 
know.
    You need no reminder on the whole question of inequitable 
burden-sharing and the continued slide in European defense 
spending. And indeed, the sad news is that even the NATO 
figures early this month have now reduced to only two countries 
meeting the 2 percent target goal, the UK and Greece. France 
has just slipped below 1.9.
    American leaders, rightly, should have the expectation that 
Chicago should come up with some kind of a credible plan to 
redress this imbalance. Smart Defense and other military 
capabilities initiatives expected to be endorsed at Chicago 
have the potential to at least staunch the erosion of European 
military capabilities by assuring allocation of their 
remaining, and still considerable, defense resources is done 
more wisely.
    At the same time, and we have touched on this earlier in 
the discussion today, a number of European leaders are 
concerned--and, Mr. Burton, you raised it earlier; it was Mr. 
Meeks, I am sorry, that raised it--hearing a number of 
Europeans concerned about how committed the U.S. is in the 
context of this realignment of our engagement and military 
assets toward East Asia and the Pacific, and the sense that 
perhaps Europe is going to be left to its own in future crises 
or more in the lead, with the U.S. in a supporting role.
    So, I think President Obama and others would do well to 
affirm in Chicago what he noted on the eve of the Lisbon Summit 
and several times since: That the United States does not have 
any other partner in any other region of the world like our 
European allies, and that we will continue and remain committed 
to European security and to working with our European allies to 
maintain our interests around the world in a more effective 
partnership.
    Now, to talk a bit briefly about some of the successful 
outcomes, I think there are three, and we have touched on most 
of them already today. First of all, there has to be a credible 
commitment for assisting Afghanistan in maintaining its 
security through the transition to an Afghan lead in 2014 and 
beyond.
    Secondly, I think we need a long-term strategy for allied 
defense planning and integration with some flagship initiatives 
and a detailed implementation plan to ensure that NATO has the 
critical military capability it needs for collective defense in 
addressing emerging security challenges.
    There needs to be greater transparency in national defense 
spending and planning, so that allies can have a better sense 
of how their national decisions that are being made on an 
annual basis are having an impact on the overall capability of 
the alliance in various future contingencies.
    Concrete steps also need to be taken, I think, for 
strengthening NATO's diverse networks of partnerships. These 
would include measures to engage some of the key contributors 
to alliance operations more effectively, but also I think, as 
we have touched on earlier today, to enhance our engagement 
with some of the countries in the Mediterranean Basin.
    Now we can talk about the effectiveness and the viability 
of all of these commitments I think perhaps in the questions 
and answers. But let me just talk a little bit about a couple 
of the missing elements of the agenda.
    Since the Lisbon Summit, we have made progress on what is 
called the Berlin Partnership Package in the alliance. That is 
to allow NATO to work more flexibly and more nimbly with all of 
its allies, to open up the entire partnership tool-kit to 
various partners according to their interests and level of 
capacity. But, still, this partnership agenda seems to be the 
least-developed element of the Chicago agenda.
    Of course, one of the big missing elements has been any 
kind of progress on the partnership with Russia, which of 
course has been hampered by progress on the missile defense 
dialogue, even though cooperation on Afghanistan has continued. 
So, there won't be a NATO Russia Council meeting in Chicago, 
but there is hope that Russia will come to the ISAF 
contributors' meeting. I think we still do need and should 
welcome Russia's support on some of those elements of our 
operations in Afghanistan.
    Under consideration, as I said, is this issue of how to 
deal more effectively with the key contributors to our current 
operations and how to do that in a way that gives recognition 
and gives them some sense of a stake in some of these 
operations that they are contributing to in very effective 
ways.
    But, as I say, there is also an opportunity to leverage 
some of the gains that we have made both with a number of Arab 
countries after the Libyan operation, but also the 
Mediterranean cooperation that we have had, particularly in the 
area of maritime security, to continue to enhance that 
capability, so that we can deal with a number of potential 
contingencies and instabilities in the Mediterranean Basin, but 
also to try to help advance the security sector reform in those 
areas.
    As I said, there are two big issues that are out of the 
agenda that perhaps we can come back to in the discussion and 
question and answer. The whole question of enlargement, I do 
think that the Summit can set the framework for further 
decisions, reaffirm the commitments that have been made already 
in previous Summits going back to Bucharest and since, but also 
to set the stage for 2014, when the next Summit will be held, 
to actually move ahead with the membership of a number of the 
four--and, hopefully, one will be sooner; that is Macedonia--
that those four recognized aspirant countries will go forward.
    But, lastly, the alliance does need to come up with a clear 
strategy for maintaining an appropriate mix of nuclear forces, 
conventional, and missile defense in our overall alliance 
strategy. There has not been a consensus, particularly over 
some of the aspects of the nuclear question, within the 
alliance to achieve that. That was one of the Lisbon Summit 
taskings. It didn't have any specific timeline, but it is one 
that I think still warrants being addressed in the coming 
years. But, in the interim, there are some other steps that we 
can take to enhance that dialogue and, also, the discussions 
with the Russians over enhancing regional stability.
    So, thank you, Mr. Chairman and Mr. Meeks. I look forward 
to the questions and answers.
    [The prepared statement of Mr. Flanagan follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. I don't think you heard me a while ago when I 
mentioned you couldn't remember who asked the question or made 
the comment. I said Mr. Meeks and I look an awful lot alike, so 
I can understand the confusion.
    Mr. Meeks. He is my dad. [Laughter.]
    Mr. Burton. He is my buddy.
    I want to be serious for a moment. I was shaving the other 
morning, and before I ask questions, I want to mention 
something. I was shaving and I had the television on. I heard 
them say something about a young man who was injured in 
Afghanistan with an IED. And I walked out and I saw a picture 
of him with his wife and his child. You talk about a good-
looking American family; this was it. He lost both of his arms 
and both of his legs. It is a human disaster that I can't 
hardly fathom.
    And the reason I bring that up is we have so much 
technology now and so many war materials and systems that we 
can actually, from a satellite and a guy sitting at a computer 
1,000 miles away, we can put a missile right down somebody's 
chimney and blow them all to hell.
    I am probably one of the biggest supporters of the military 
and of strong defense, and a big supporter of NATO. And I don't 
know that anybody at NATO is going to hear what I am going to 
say, but I really believe that we ought to take a different 
look at how we conduct wars. With the technology we have and 
the satellites that we have, it seems to me that we could 
pinpoint, maybe with some observers on the ground and some 
intelligence people on the ground, we could pinpoint the 
figures that we have got to knock out and do it without putting 
ground troops in that are going to come back in pieces.
    It is just tragic. We have been there 10 years. This young 
man's life is ruined. His wife's life is ruined. His children's 
life is, I am sure, going to be affected adversely.
    I started thinking about World War II. You guys are too 
young to remember it, and I was just a kid, a baby. But we 
invaded Europe and we went after Japan. We used whatever 
technology we had to limit the casualties. We did that by 
firebombing Dresden, Germany, and firebombing Berlin, and 
hundreds of thousands of innocent civilians were killed. In 
Japan, hundreds of thousands of innocent civilians were killed. 
But we probably saved 0.5 million American lives and allied 
lives by not invading the island of Japan.
    Now the reason I mention this is--this is just one man's 
perspective--we need to evaluate how we conduct military wars 
in the future. We don't need to send 100,000 or 150,000 young 
men and women into combat and have them come back in pieces 
when we have the technology that we have.
    We see bad guys, bad regimes, and we want to get rid of 
them. We could do it like that. And I don't want to see any 
more young men come back with no arms and no legs. I am so sick 
of this.
    When I hear people talk about NATO and about our allies and 
about war, and everything, it is always the troops. And, Mr. 
Coffey, I understand what you are saying; we don't want to have 
a unilateral pullout right now. We don't want to let the 
Iranians and the Taliban and al-Qaeda know that we are pulling, 
stopping, and running and leaving.
    But, at the same time, we need to start realizing that 
there is no antiseptic war. There are going to be civilian 
casualties. We saw that in World War II to the tune of about 
40- or 50 million people.
    When it comes to allied forces and American young men and 
women, I want to start using the technology that we have so we 
don't put them at any more risk than is absolutely necessary. 
The bad guys, I want to kill them. I don't want to see 
Americans killed any more than has to happen.
    This idea that we are going to have an antiseptic war, and 
we are going to put hundreds of thousands of troops in there, 
when we know we have the technology to knock out most of the 
bad guys by just using the technology we have, I just don't 
understand it.
    So, that is just my little tirade today. I hope somebody is 
listening out there because, if we are going to go after bad 
regimes and bad guys, and we make a collective decision to do 
it, then do it. Then do it with what we have without risking 
any more lives than are necessary.
    Now I just have one question, and you can all answer this. 
You may not agree with me; Mr. Meeks may not agree with me. I 
don't know.
    But when we go to that NATO meeting in Chicago, as you 
said, there are only two countries now that meet the 2 percent. 
I think we do, more than do that. But there are only two 
countries.
    The allies that are putting up the money and the resources 
need to be very firm and say, ``Look, if Greece can reach 2 
percent and they are bankrupt, then, by golly, the others can 
cough up that money.'' I hope that gets in the paper someplace. 
If Greece can do it with all the fiscal problems they are 
having, then the others ought to be able to do it as well.
    If you have any comments here, you are welcome to make 
them.
    Mr. Coffey. Thank you, Mr. Chairman.
    On the point about the lack of spending by our European 
allies, I couldn't agree with you more. What I think that the 
administration needs to do more of is to publicly point out and 
make this point and press this point home.
    I had a unique experience working in British politics and 
seeing things many times from the other side, from maybe more 
of a European point of view, how American policy can impact our 
allies in Europe and our special relationship in the UK.
    I can tell you that at the many NATO ministerial meetings I 
attended, or even the NATO Summit in Lisbon, I saw how 
effective American leadership can be when it is used, and how 
many of our European allies value the leadership attributes 
that America brings to the table.
    When former Secretary Gates gave his farewell address in 
Brussels, it sent shockwaves through many European capitals. It 
was talked about in bilateral meetings. It was talked about in 
the press, the commentators, the editorials. It was major news 
in the defense world.
    But, then, when he left, that sort of drive to really focus 
this issue and not be scared to name and shame kind of went 
away. When Secretary Panetta gave his first speech at Brussels, 
everyone was on edge--I remember this--about what Secretary 
Panetta is going to say. Is he going to pick up where Secretary 
Gates left off? And his speech was much more tame. Now it could 
be because he was new and he wanted to be polite the first time 
at a NATO ministerial. But it was noticed. So, I don't think we 
should underestimate the effect American leadership can have 
when we raise these issues publicly. That is my first point.
    The second point I would like to point out is sometimes in 
the U.S. we fail to realize the lack of importance attached to 
the ministries of defense in Europe relative to the importance 
we attach to the DoD in the U.S. or the MOD in the UK. In many 
European countries, the ministry of defense has a lower stature 
in terms of Cabinet ranking.
    So, we can talk until the cows come home to defense 
ministers in European capitals, but if you really want to start 
to unlock this, you are going to have to start addressing this 
issue at the foreign ministerial level and, better yet, at the 
head-of-government level.
    Thank you.
    Mr. Burton. Anybody else?
    Mr. Wilson. If I might just add to your first point, I just 
want to thank you for your powerful opening remarks there. I 
had the opportunity to serve in Iraq as a diplomat at our 
Embassy and in Afghanistan with NATO, and I understand where 
you are coming from with your poignant remarks.
    I think it really puts an emphasis on two things, 
technology and tactics. If you think about what we need to be 
able to do with our allies, in the Kosovo air campaign the air 
campaign was 90 percent U.S., 10 percent Europeans, because 
they weren't up-to-speed with precision-guided munitions, the 
kind of technology that is required in modern warfare to 
minimize civilian casualties.
    The reality is in Libya it was the reverse, 10/90, where we 
had pushed our European colleagues to be able to fight in all 
weather environments, using precision-guided munitions. It 
wasn't perfect and there are still real challenges, but I think 
this puts an imperative on keeping our allies with us as we 
move forward on technology. That is why the alliance 
acquisition of UAVs and precision-guided munitions remain a top 
priority in the capabilities package.
    But it is also the tactics. We are in 10 years of 
Afghanistan, but we just have completed the Libya operation 
without troops on the ground with no casualties, with probably 
the most minimal civilian casualties of the modern military 
operation. It is fairly remarkable.
    And then, finally, I think your comments inform NATO 
strategy and Afghanistan post-2014. If the alliance is going to 
remain in a training capacity, the real issue is how do we 
continue to have counterterrorism capabilities that can use 
more modern technology, more pinpointed strikes, that de-
emphasize the importance of ground troops. I think that is a 
key part of what role the alliance will play post-2014.
    Finally, on defense spending, I would say we should give a 
nod to some of our allies. Norway and Estonia are two of the 
smaller allies that are keeping up on the defense-spending 
side. But the reality is that American haranguing on the 2 
percent hasn't produced results. Part of what the challenge is, 
is that political ambition of our European allies is going to 
drive their decisions on defense. So, we have to bring them 
with us to feel a sense of responsibility and ownership for the 
challenges we are facing on the global agenda. This is why you 
take our European allies with us as we pivot to Asia. We don't 
pivot away from Europe to Asia. We have to bring them with us 
to underscore that our European partners are our go-to partners 
in solving any problem. And therefore, a sense of ownership and 
political ambition will help drive defense spending.
    In the near-term, they are dealing with budget crises. And 
so, I think our expectations should be for them to develop, if 
not to see in the budget today, for us to see them with plans 
that show over the next coming years, as their economies 
recover, that they have a plan to restore spending, so that 
they get back up to 2 percent. If not in 1 year, we see the 5-
year plan.
    Mr. Flanagan. Mr. Burton, I just had two other perspectives 
on your very compelling statement about the nature of warfare 
in recent years. I think that Libya is actually an example of 
the way in which the U.S. conducted that operation and 
addressed your concerns in two ways. First of all, it did apply 
technology. It was precision-guided munitions that a number of 
allies had, including a number of smaller allies who were quite 
successful with this. Support was provided and refueling and 
target acquisitions by the United States, but, nonetheless, a 
number of these allies did. Of course, you had the results that 
were alluded to earlier of relatively limited civilian 
casualties with enormous damage to the capacity of Gaddafi 
forces to go after innocent civilians and to wreak the kind of 
slaughter in Benghazi and other cities that were in the 
horizon.
    But, secondly, I think the decision to--and there were a 
number of reasons motivating this--but the decision to let two 
willing and capable European allies, the UK and France, coupled 
with a number of other very capable smaller allies, to play the 
leading role in some of the actual conduct of strike missions, 
with the U.S., again, completely embedded in the operation and 
supporting, but not playing a leading role, once again, in yet 
another operation in the Arab Middle East, I think this was a 
way to encourage Europeans and to show them that--and it 
certainly wasn't pretty and there were many shortcomings, but 
it did show that Europe could play a leading role in dealing 
with a relatively-simple contingency on their periphery with 
some U.S. support.
    Again, I wouldn't say this is a model for all future 
operations, but there are instances where Europe has taken 
action somewhat independently along its periphery, lesser 
operations in the Balkans and elsewhere. I think we should be 
encouraging that at a time when the U.S. is going to be feeling 
a heavy sense of demand on engagement in the Far East and other 
areas of the world.
    Thank you.
    Mr. Burton. Mr. Meeks?
    Mr. Meeks. Thank you, Mr. Chairman.
    As I sit here and listen, I am reminded more and more why 
this alliance is so important. Being a New Yorker, of course, 
9/11 was significant. The day after 9/11 was the first, and I 
believe the only, time that NATO invoked Article 5, emphasizing 
the point of an attack against one of us was an attack against 
all of us. That is so significant as I listen and think.
    I agree with Mr. Burton in that no one wants to see our 
young men and women coming back maimed and hurt and families 
disseminated as a result of war. If we have technologies to 
prevent such, we want to do so.
    I just want to add--and I am pretty sure Mr. Burton would 
agree--that not only am I talking about American casualties and 
innocent individuals, but our allied casualties and civilians, 
innocent civilians. We don't want the loss of innocent lives, 
because all of us are human beings. We want to save as many 
people as we possibly can, civilians, those that are not 
committing heinous acts, those who are not the bad guys.
    We want to go after the bad guys and save as many of the 
good guys, because oftentimes that is the reason why we go to 
war. That is the reason why we went to war in Libya. We wanted 
to help the good guys and help save civilian lives, and not 
have innocent people die. Surely, if we can do something to 
prevent our young men and women from being victims during war, 
I think that we should move in that direction.
    My question, I guess, that I throw out first, because there 
is this great need, I think, of having NATO. Dr. Flanagan, you 
just talked about the model that was used in the Libya mission, 
which I pretty much agreed with. The only concern that I have 
is that the threat perceptions or the cost/benefit analysis 
looked different within the alliance.
    You mentioned how we let Britain and France take the lead, 
and it was a successful operation because we also had Sweden 
and the Gulf states involved. But there were other partners 
that stayed out.
    That raises the question of, what about future operations? 
Will it increasingly be, say, the coalitions of the willing 
within the alliance? If that is so, then what does that mean 
for the future of NATO?
    Again, I stress I think that these are important, but one 
of the concerns that I have, just now analyzing what took place 
in Libya and thinking about the future. So, I would love to get 
your response on that.
    Mr. Flanagan. Yes, Mr. Meeks, I think that is very good 
insight. I do think that is a challenge that the alliance is 
going to confront. Among an alliance of 20 countries, you don't 
have the common assessment. There wasn't certainly the sense 
that some of the Northern European allies had, particularly one 
big one, Germany, had about the situation in Libya and how it 
affected their security.
    What I think is important is the key thing is what enabled 
the alliance to move forward so effectively was the degree of 
integration and interoperability that developed through the 
unified military structure. It is important to maintain that.
    And this is going to be important in the context of a Smart 
Defense debate because of this whole notion of if countries 
move toward specialization, and they don't have certain 
capabilities, are they going to be available to them from other 
allies when they need them, when the alliance as a whole wants 
to put together either a coalition of the willing under an 
alliance framework or even some other kind of ad hoc operation 
that would still benefit from the levels of military 
integration that exist? So, I think it is important that we not 
encourage this to be the preferred option, but I think we have 
to live with the reality that it may be the option because not 
all allies will see as much urgency on certain operations.
    But, to me, the key thing is to maintain the integration 
that exists within the military structure to continue, and 
particularly with our residual presence in Europe, to maintain 
the kind of training and interaction with European forces after 
our withdrawal from Afghanistan, to ensure that we can work 
effectively with all of our European partners to deal with a 
range of different contingencies; and that even if it is not 
full-blown, it is not all 28 countries contributing, as we have 
seen in Afghanistan and elsewhere before, still, it can be an 
effective and a more legitimate operation, blessed by the 
entire alliance, even if it ends up being sort of this notion 
of a less-than-full contribution by all member states.
    We have never had, even in the old defense of the central 
region, we never had a fully equitable contribution by all 
allies in defense of the alliance or in the conduct of some of 
those preparations. But the key thing is to have that sense 
that there is resolve and commitment of all allies to any 
operation that the alliance undertakes.
    Thank you, sir.
    Mr. Wilson. Congressman Meeks, if I might add to that, I 
was working at NATO headquarters on 9/11, working for Secretary 
General Lord Robertson. I was watching on the TV in his office 
as the second plane hit the second tower in New York. As an 
American at NATO headquarters, on the one hand, I felt a sense 
of frustration and helplessness that I couldn't do anything, 
that I wasn't in the United States, that I wasn't able to help 
respond.
    As the alliance went into action that day and began to 
consider invoking Article 5 for the first time in its history, 
it underscored to me how solemn this commitment is and the 
extent of this degree of solidarity, and how unique this 
alliance is. At a time of our nation under attack, these 
countries are willing to say that they will consider it an 
attack on themselves and be there with us.
    If you think about Afghanistan and the casualties that our 
allies have suffered in Afghanistan, on September 10th, 2001, I 
never would have guessed that you could imagine our European 
partners would have deployed to us in combat 3,000 miles away 
in Afghanistan for a decade. It was inconceivable. And yet, 
despite all the flaws and problems and caveats, that is what 
they have done. It is a pretty remarkable feat.
    First and foremost, most of them have done it out of a 
sense of solidarity with us. I think it is easy to take that 
for granted. So, I value your comments.
    On the Libya point, I think part of NATO's strength is its 
adaptability, its flexibility. That is good for us. That is 
good for the alliance. But, at the end of the day, the reason 
NATO is enduring is because of the sense of solidarity that we 
felt on 9/11. It really is about trust among allies and 
partners.
    And so, this issue of some of the allies not contributing 
to Libya is a serious issue. Now some of the smaller ones 
didn't really have assets that would have been applicable in an 
air campaign over Libya. But Germany, Poland, they did. I think 
as we think about the alliance and the way forward, while its 
flexibility is a strength, and while there should be allies 
that can step up and step back in certain operations, it is 
something that we have to constantly work at because it is a 
sense of trust and solidarity that at the end day makes sure 
that Article 5 itself is actually credible. And so, we can't 
take that for granted.
    While I think Libya was a success in many regards, it is a 
warning bell, I think as you have said. If you let this go too 
far--in fact, some allies told us that, because they sensed 
that Libya wasn't a first-order priority of the United States, 
because it wasn't important enough to us, that maybe it wasn't 
going to be important enough for them to commit forces. I think 
that is a potentially corrosive trend over the long-term and 
something that we have to guard against.
    Mr. Coffey. Congressman Meeks, I cannot agree with you more 
and with my two colleagues here around the table, the value 
NATO brings in terms of solidarity with the United States. I 
want to see NATO as an alliance succeed. I want to see it 
transformed. I want to see it ready to take on 21st century 
threats.
    While I will point out the positives, and there are many, 
as Damon said, about 10 years later, imagining so many European 
troops fighting in Afghanistan, I will also not make excuses 
for my friends, because I don't think that is what friends do. 
Friends help friends.
    In that regard, with Libya, I think Libya was a success 
insofar as NATO was able to quickly stand up the command 
structure to allow the operation----
    [The microphone shuts off.]
    Mr. Meeks. Try the button.
    Mr. Coffey. I will speak loudly.
    Mr. Meeks. Hit the button. The button didn't get hit by 
accident?
    Mr. Coffey. As was pointed out, only half of NATO members 
actually contributed anything to the operation. I think only 
seven actually conducted air-to-ground strike operations.
    There were some notable surprises, especially with the 
Norwegians, the Danes, and the Belgians, who at the time were 
at about the 2-year mark without having government, which 
probably says something.
    But I think that we should really focus on how we can learn 
lessons from Libya and how to improve similar operations in the 
future. But I would caution against comparing Libya to other 
campaigns such as Afghanistan or other NATO contingency 
operations in the past because it was on a completely different 
scale.
    For example, well, every day there are roughly about 200 
air sorties flown in Libya. Compare that to, roughly, 2,000 
that were flown every day in the opening days of Iraq. So, 
again, a completely different scale.
    Compared to what we are trying to achieve in Afghanistan, 
which is basically trying to train-up an indigenous force, the 
Afghan National Security Forces, to take over an insurgency, 
again, that is completely different from what we were 
experiencing in Libya.
    I would like to conclude by going back to Afghanistan and 
say that we have all been touched. I would say most Americans 
have been touched in one way or the other, by losing 
colleagues, friends, or family members in Afghanistan, in Iraq, 
and other wars. But we need to make sure that we set clear 
objectives for what we are trying to achieve.
    In Afghanistan, the standard for NATO should be a pretty 
low standard. It should be simply to create the conditions 
where the Afghans can take over the counterinsurgency mission, 
so western troops can leave. The AMSF are the ticket out for 
western troops. It is their country. It is their fight. It will 
ultimately impact on our security if they don't get it right. 
That is why we have to help them. But that is where we need to 
be.
    By 2014-2015, we need to see an AMSF that is capable of 
carrying on with the counterinsurgency campaign. And by 2015, 
there will be an insurgency in Afghanistan. We should prepare 
the public for that now. But India, with the largest democracy 
in the world, still fights two insurgencies inside its borders. 
So, it doesn't mean that we have failed.
    I think maybe that is another aspect of Chicago that will 
be important that I failed to mention, is that we should start 
preparing the public for what we should eventually expect out 
of Afghanistan when western troops withdraw.
    Thank you.
    Mr. Burton. Let me just ask one real quick question 
regarding Libya. As I understand it, the NATO treaty is, if 
there is an attack on one, it is an attack on all and they all 
respond collectively to the threat. That was not the case in 
Libya. There was no attack on any NATO ally. There was a 
decision made by some of the leaders, France and the United 
States as well as some others, that there were humanitarian 
tragedies going on, and that Muammar Gaddafi was a tyrant and 
should be replaced. There was no threat to any country that I 
know of.
    And so, since there was no attack on anyone, I can 
understand why Germany and other countries might say, ``Hey, 
wait, why are we getting into this thing?'' So, I think that 
needs to be made very clear. NATO was designed, as I understand 
it, to be a defense mechanism against attacks on any one of the 
NATO allies. But if there is no attack, obviously, there is a 
question about whether there is an obligation for all of the 
NATO allies to go in and attack a country because one or two 
countries may say, ``Hey, this guy has got to go.''
    Real quickly, yes, sir?
    Mr. Coffey. I will quickly comment on that, Mr. Chairman.
    You are right that it wasn't an Article 5 mission. In fact, 
as was already pointed out, there has only been one Article 5 
declaration since the beginning of NATO. But, actually, the 
Article 5 declaration isn't for ISAF and Afghanistan. It was as 
a result of September 11th. Those were Operation Eagle and 
Operation Active Endeavour.
    There have been many NATO operations in the past that 
have--well, in fact, by definition, since it has only been 
invoked once, Article 5, every other NATO operation has been a 
non-Article 5 operation. So, I wouldn't say that, just because 
something isn't a direct threat to the alliance, that the 
alliance shouldn't act.
    But I would certainly agree with you. Actually, I was one 
of the ones who was very cautious and skeptical in the 
beginning about intervening in Libya. I would agree with you 
that NATO needs to be very selective when and where it 
intervenes and how it intervenes, because Libya is not a closed 
book, and there is still a lot to be said for what is going to 
happen with Libya.
    Thank you.
    Mr. Meeks. Let me just real quick, again, just feeding off 
of you a little bit, because it is compelling and history makes 
you think. When do you get involved? When don't you? I think of 
the innocent lives in Rwanda. Should we have gotten involved in 
the Sudan? Could we have saved thousands, hundreds of 
thousands, of Jewish lives if we had gotten involved earlier 
during the Holocaust?
    What are our responsibilities as countries and as human 
beings? So, all of that has a play in this. Sometimes, I guess, 
when you get involved, you don't know what the outcome, what 
the recording of history will say, whether you acted too late, 
as I believe we did with reference to the Holocaust, and we 
didn't do much of anything in Rwanda. Or whether you interceded 
when you should not have. I mean, that is something that I 
think that is all part of our decisionmaking process as we move 
forward, which is a very challenging and difficult thing for 
any country to make a decision.
    I would hope that that is why the alliance is built, so 
that we can have those kinds of conversations and trying to 
make those kind of collective decisions and not leave it just 
to one country to make that decision, but let's try to work 
together for our united selves to make that decision, which I 
think, then, would put us in a better place as we move down the 
road. Another reason why I just think that the alliance is so 
important, so important.
    Let me just get off this topic because we have been here 
long enough. But I do want to ask one, because we asked a lot 
of questions of the administration in regards to Georgia's 
aspirations to join NATO. I would just like to know from you 
whether or not you think that, without government control of 
the Russian-occupied territories of Abkhazia and South Ossetia, 
how would NATO's Article 5 apply to those occupied territories? 
I would just like to get your thoughts on that.
    Lastly, I think, Dr. Flanagan, you were there this morning, 
a meeting; the EU delegation is hosting a big symposium today 
about the EU's common security and defense policy and NATO/EU 
cooperation. I would just like to get your assessment on this 
cooperation.
    Mr. Wilson. If I might start on Georgia, if the alliance 
said that Georgia could not enter NATO until Russia withdrawal 
from Abkhazia and South Ossetia, we, by default, would be 
giving Russia a veto over our decisions about enlargement. That 
is a path the alliance can't go down, shouldn't go down. So, 
this is a complicated and difficult issue. But we brought 
Germany into the alliance when it was divided.
    I think that part of the resolution of this difficult 
situation in the South Caucasus in Georgia will be clarity on 
the part of the alliance that its commitment at Bucharest that 
Georgia will be a member, that we demonstrate that that is 
genuine. And it would continue to work with Georgia through the 
NATO Georgia Commission to help it both with defense reforms, 
internal political reforms, to better prepare it, and that, as 
it prepares, we are serious about bringing it into the 
alliance.
    This will have to create and force the dynamic that creates 
a more auspicious environment for the negotiations over 
Abkhazia and South Ossetia. But if we back up and lead and say 
we can't touch Georgia until Russia withdraws, we basically 
have acceded the turf to a decision in Moscow, and we can't go 
down that path in my view.
    Mr. Coffey. Following up quickly on Georgia before Dr. 
Flanagan goes on to talk about CSDP, I think that the Georgians 
actually need to make clear that they are happy for there to be 
some sort of compromise or arrangement with eventual Georgian 
membership into NATO that excludes South Ossetia and Abkhazia 
for the time being, until that situation is peacefully resolved 
with Russia.
    I believe this is the stated policy of the Georgian 
Government. I don't believe that they have done a very good job 
of convening this message to NATO allies. But President 
Saakashvili has made a non-use-of-force pledge on regaining the 
two occupied territories. So, by definition of pledging not to 
use force, he has automatically implied that he sets aside 
NATO's Article 5 commitment if Georgia was to become a member 
of NATO.
    Thank you.
    Mr. Burton. I might just add real quickly here that 
Russia's accession into the WTO could have been stopped by 
Georgia. And so, Georgia has already acceded to one aspect of 
the problems that they face in those occupied territories.
    I think you are absolutely right, it will be the same 
thing.
    Mr. Coffey. Absolutely, Mr. Chairman. Actually, that 
decision, the agreement made between Georgians and the Russians 
over this issue of Russia's membership in the WTO actually 
shows that President Saakashvili is willing to take a pragmatic 
stance when it is required.
    Thank you.
    Mr. Flanagan. Mr. Meeks, yes, with regard to the CSDP, the 
Common Security and Defense Policy, I think the theme of some 
of this morning was that, well, some had declared that perhaps 
it was, if not dead, nearly dormant. But I think we heard that 
there are important operations still underway, some not very 
prominent in Central Africa, and helping Sudan and others. But 
some actually quite significant, including the Atalanta anti-
piracy operation which is working with both NATO and the U.S. 
task forces that are operating out there in that region.
    The EU has not set up lots of duplicative structures, as 
many had feared. They don't have the resources to do it. I 
think one of the strengths that the EU can bring to these kinds 
of operations, in particular, in their mission in the Horn of 
Africa, they have also been providing some financial support to 
assisting the Somalians with enhancing their security, with 
some of the legal elements of going after some of the piracy 
money and finances.
    So, the notion that the EU can bring, because of the other 
elements of the EU institutions that can bring along some of 
the areas of civilian capacity, together with the European 
military capacity, I think is some of the kinds of things we 
should encourage.
    Again, not big and duplicative missions that should be 
focused on NATO, but some of these lesser activities where, in 
showing that Europe is building the Union in all of its 
dimensions, that this is something that I think in the end 
provides net benefit to the United States and to all of the 
allies.
    Thank you.
    Mr. Burton. Gentlemen, thank you very much. This has been a 
very informative panel. I am sorry we kept you so long, but it 
was worth the wait, I think. Thank you.
    [Whereupon, at 5:04 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 <F-dash>\<diamond><careof><script-l><careof><natural>a<loz><careof>s 
                     <because><F-dash><Register>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<box><Rx><bullet><box><script-l> <because><F-dash><Register>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
